No. 20In the

Supreme Court of the United States
FUSION IV PHARMACEUTICALS, INC.
DBA AXIA PHARMACEUTICAL,
AND NAVID VAHEDI, PHARM D.,
Petitioners,
v.
ANNE SODERGREN IN HER OFFICIAL CAPACITY
AS INTERIM EXECUTIVE OFFICER FOR THE
CALIFORNIA STATE BOARD OF PHARMACY;
AND DOES 1 THROUGH 10, INCLUSIVE,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
A l Mohajerian
Counsel of Record
A nn A nooshian
Mohajerian, APLC
1901 Avenue of the Stars, Suite 1100
Los Angeles, CA 90067
(310) 556-3800
al@mohajerian.com
Counsel for Petitioners
302507

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
Whether 21 U.S.C. §353b of the Federal Food, Drug
and Cosmetic Act “FDCA” (the “Compounding Quality
Act” which is part of the “Drug Quality and Security Act”),
enacted in 2013 which itself “created” federal outsourcing
facilities and provided for their oversight by the federal
government, preempts California state law licensing
requirements contained in Business and Professions Code
§4129 and §4129.1, which attempt to require licensing and
regulation by the state of California?
Whether 21 U.S.C. §353b of the FDCA preempts
California state laws and regulations (Business and
Professions Code §4129 and §4129.1) in addition to
licensing requirements for federal outsourcing facilities?
W het her Ca l i for n i a l aw i mp osi ng l icen si ng
requirements and regulations (Business and Professions
Code §4129 and §4129.1) violates the United States
Commerce Clause in light of 21 U.S.C. §353b of the
FDCA, the purpose of which was to create and provide
oversight of federal outsourcing facilities which are the
sole means of placing compounded medications and drugs
into interstate commerce in the case of a shortage or in
the case of a clinical necessity?
Whether the FDCA’s preemption of enforcement (21
U.S.C. §337) of federal outsourcing facilities created under
21 U.S.C. §353b, extends to and thus preempts state laws
which require additional licensing and/or regulation of
federal outsourcing facilities?

ii
PARTIES TO THE PROCEEDING
F usion I V Pha r ma ceut ic a ls, Inc., dba A x i a
Pharmaceutical
Navid Vahedi, Pharm. D.
California State Board of Pharmacy, Acting Executive
Director

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, Petitioner Fusion
IV Pharmaceuticals, Inc. dba Axia Pharmaceutical
states that it is an incorporated entity under the laws of
California, that it has no parent company, and that no
publicly held company owns ten percent (10%) or more of
stock relating to it.
Petitioner Navid Vahedi, Pharm D. states that he is
an unincorporated private citizen, that he has no parent
company, and that no publicly held company owns ten
percent (10%) or more of stock relating to him.

iv
RELATED CASE STATEMENT
Fusion IV Pharmaceuticals, Inc et al. v. Executive
Director Virginia Herold, et al., 2:19-cv-01127-PAFFM, United States District Court Central District of
California; Judgment entered June 21, 2019.
F u s ion I V Ph a r m a c e ut ic a l s , I nc db a A x i a
Pharmaceutical, a California corporation; Navid Vahedi,
Pharm D. v. Ann Sodergren, in her Official Capacity as the
Interim Executive Officer of the California State Board
of Pharmacy, 19-55791, United District Court of Appeals
for the Ninth District, Judgment entered July 29, 2020.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASE STATEMENT  . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . x
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . .  xi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS
AND FEDERAL STATUTES . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THIS WRIT . . . . . . . . . 6
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . 13
LEGAL AUTHORITIES FOR
GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . .  17

vi
Table of Contents
Page
I.

EXPRESS PREEMPTIVE LANGUAGE
IS IN 21 U.S.C. 353b WHICH THE
N I N T H C O U R T FA I L E D T O
C ONSI DER A S W EL L A S T H E
OBVIOUS IMPLIED PREEMPTION . . . . . . 18

II.

EX PRES S PREEM P T ION IS I N
THE L A NGUAGE OF THE
STATUTE A ND ENFORCEMENT
PROVISIONS OF THE FDCA . . . . . . . . . . . . 19

III.

THE NINTH CIRCUIT DECISION
IS IN CLEA R CONFLICT W ITH
DECISIONS BY THIS COURT WHICH
HOLD A FEDERAL LICENSE OR
RIGHT MAY NOT BE FRUSTRATED
BY STATE LAW  . . . . . . . . . . . . . . . . . . . . . . . . 20

IV.

THE EFFECT ON INTERSTATE
C OM M ERCE I S E S TA BLI SH ED
PURSUANT TO STATUTE AS WELL
AS FACT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

V.

FDCA IS REGUL ATED BY THE
SECRETA RY A ND STATE LAWS
CONFLICTING WITH FEDERA L
REGULATIONS ARE INVALID  . . . . . . . . . 23

VI.

THE LANGUAGE OF THE STATUTE
E X P L I C I T LY L I M I T S S T A T E
CONTROL TO STATE LICENSED
PHARMACIES  . . . . . . . . . . . . . . . . . . . . . . . . . 24

vii
Table of Contents
Page
VII.

THE LANGUAGE OF THE STATUTE
LIMITING STATE INVOLVEMENT
IS CLEAR  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

VIII.

FIELD PREEMPTION IS CLEA R
FROM THE STATUTORY LANGUAGE
AND CONGRESSIONAL INTENT  . . . . . . . 25

IX.

T H E ‘ D OR M A N T ’ C OM M ER C E
CLAUSE IS AN INCORRECT ANALYSIS
WHERE CONGRESS HAS ACTED . . . . . . . 26

X.

C ONGR E S SIONA L I N T EN T T O
D O M I NA T E T H E F I E L D A N D
R E P L A C E A L L S T A T E L AW S
IS UNQUESTIONABLE . . . . . . . . . . . . . . . . . 27

XI.

THE FDCA H A S CREATED A
DISCRETIONA RY REGULATION
A ND ENFORCEMENT PROCESS
WHICH EXPRESSLY PREEMPTS
STATE LAW  . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

XII.

A STATUTE CREATED BY CONGRESS
TO A DDRESS A ND CA RRY OU T
THE EXECUTION OF THE DRUG
QUALITY AND SECURITY ACT AND
T HE COM POU N DING QUA LI T Y
ACT MAY NOT BE BURDENED BY
CONFLICTING STATE LAW . . . . . . . . . . . . 30

viii
Table of Contents
Page
XIII.

CALIFORNIA LAW IS IMPLIEDLY
PREEMPTED DUE TO THE FDCA’S
DISCRETIONARY ENFORCEMENT
PRO CES S W H ICH T H E N IN T H
COURT RECOGNIZED IN 2019 . . . . . . . . . . 32

XIV.

F D C A L A NGUA G E R E QU I R E S
F EDER A L EN FORCEM EN T BY
ACCREDITED INSPECTORS . . . . . . . . . . . . 32

XV.

FDCA CREATED A STATU TORY
PRESUMPTION THAT WHERE A
DRUG IS PLACED INTO INTERSTATE
COMMERCE, THE INTERSTATE
COMMERCE CLAUSE IS AFFECTED . . . 33

XVI.

FDCA EXPRESSLY PREEMPTS STATE
LAW IN THE ENFORCEMENT OF
OUTSOURCING FACILITIES WHICH
WERE CREATED BY THE FDCA  . . . . . . . 34

XVII.

THE NINTH CIRCUIT IGNORED
SU PREME COURT PRECEDENT
ENTIRELY AS TO CALIFORNIA’S
LICENSING REQUIREMENTS AND
I N PU T L A NGUAGE I N T O T H E
STATUTE WHICH WAS NOT THERE . . . . 35

ix
Table of Contents
Page
XVIII. H E A LT H A N D W E L FA R E O F
CITIZENS OF THE UNITED STATES
ARE AFFECTED BY LEGISLATION
R EL AT I NG T O OU T S OU RCI NG
FACILI T IES W HICH A RE T H E
O N LY V E H I C L E S T O P L A C E
C OM P OU N DED DRUG S I N T O
INTERSTATE COMMERCE . . . . . . . . . . . . . 37
XIX. CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

x
TABLE OF APPENDICES
Page
APPENDIX A — MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS
FOR T HE NIN T H CIRCU I T, FILED
JUNE 17, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — UNITED STATES DISTRICT
COURT FOR THE CENTRAL DISTRICT OF
CALIFORNIA, FILED JUNE 21, 2019 . . . . . . . . . 5a
APPENDIX C — DENIAL OF REHEARING OF
THE UNITED STATES COURT OF APPEALS
FOR T HE NIN T H CIRCU I T, FILED
JULY 29, 2020  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33a
APPENDIX D — CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED . . . . . . 35a

xi
TABLE OF CITED AUTHORITIES
Page
Cases
Borchenko v. L’Oreal USA, Inc.,
(C.D.Cal.2019) 389 F.Supp.3d 769 . . . . . . . . . . . . 11, 32
Capital Cities Cable, Inc. v. Crisp,
467 U.S. 691 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
Chae v. SLM Corp.,
593 F.3d 936 (9th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 29
Douglas v. SeaCoast Products, Inc.,
(1977) 431 U.S. 265 . . . . . . . . . . . . . . . . . . . . . . . . . 7, 22
FDA v. Brown & Williamson,
(2000) 529 U.S. 120 . . . . . . . . . . . . . . . . . . . . . . . . . 7, 34
Fidelity Federal Savings & Loan Assn. v.
De la Cuesta,
458 U.S. 141 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
Gibbons v. Ogden,
9 Wheat. 1, 6 L. Ed. 23 (1824)
(Marshall, *713 C.J.) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Hall v. DeCuir,
(1877) 95 U. S. 485 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Hillsborough Cty., Fla. v.
Automated Med. Labs., Inc.,
(1985) 471 U.S. 707  . . . . . . . . . . . . . . . . . . . . . . . . 19, 28

xii
Cited Authorities
Page
Hines v. Davidowitz,
(1941) 312 U.S. 52  . . . . . . . . . . . . . . . . . . . . 9, 19, 28, 35
In re Chrysler LLC,
(2009) 576 F.3d 108 . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Jones v. Rath Packing Co.,
(1977) 430 U.S. 519  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Kansas v. Garcia,
(2020) 140 S. Ct 791 . . . . . . . . . . . . . . . . . . . . . . . . . 7, 21
Nat’l Ass’n of Optometrists & Opticians v.
Harris,
(2013) 682 F.3d 1144  . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Nw. Immigrant Rights Project v. Sessions,
(W.D.Wash. July 27, 2017, No. C17-716 RAJ)
2017 U.S.Dist.LEXIS 118058  . . . . . . . . . . . . . . . . . . 21
Pennsylvania v.
Wheeling & Belmont Bridge Co.,
(1852) 54 U.S. 518  . . . . . . . . . . . . . . . . . . . . . . . 7, 21, 22
Pom Wonderful LLC v.
The Coca-Cola Company, et al.,
No. 2:08-cv-06237-SJO-FMO, Docket Entry 417
(C.D. Cal. Feb. 13, 2013 . . . . . . . . . . . . . . . . . . . . . 28, 31
Puerto Rico v.
Franklin-California Tax-Free Trust
(2016) 136 S. Ct. 1938  . . . . . . . . . . . . . . . . . . . . . . . . . 26

xiii
Cited Authorities
Page
Rice v. Santa Fe Elevator Corp.,
331 U.S. 218, 67 S. Ct. 1146, 91 L. Ed. 1447 (1947) . 19
Southern Pacific Co. v. Arizona,
(1945) 325 U. S. 761 . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Sperry v. Florida,
(1963) 373 U.S. 379  . . . . . . . . . . . . . . . . . . . . . . 7, 20, 21
United States v. Shimer,
367 U.S. 374 (1961) . . . . . . . . . . . . . . . . . . . . . . . . . . . .35
Western & Southern Life Ins. v. State Board of
California,
(1981) 451 U.S. 648  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Federal Statutes
U.S. Const. art. I, clause 3 . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. art. VI, § 8, clause 2 . . . . . . . . . . . . . . . 2, 7, 21
21 U.S.C. § 336  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 10
21 U.S.C. § 337  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
21 U.S.C. § 337a  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
21 U.S.C. § 341  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 341(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31

xiv
Cited Authorities
Page
21 U.S.C. § 343(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(f)  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(g) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(h) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(i)  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(k) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(q) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 343(r)  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  11, 31
21 U.S.C. § 351(a)(2)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
21 U.S.C. § 353a  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 14
21 U.S.C. § 353a(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
21 U.S.C. § 353b . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
21 U.S.C. § 353b(a)(11) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

xv
Cited Authorities
Page
21 U.S.C. § 371  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 7, 23
21 U.S.C. § 371(h)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . 23
21 U.S.C. § 371(h)(1)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . 24
21 U.S.C. § 374(g)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 33
21 U.S.C. § 377  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20, 29
21 U.S.C. § 379j-62 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 16
21 U.S.C. § 379a  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
California Statues
Bus & Prof. Code § 4129 . . . . . . . . . . . . . . . . . . . . . passim
Bus & Prof. Code § 4129.1 . . . . . . . . . . . . . . . . . . . . passim
Bus & Prof. Code § 4129.4 . . . . . . . . . . . . . . . . . . . . . . 3, 13

1
OPINIONS BELOW
The opinion of the District Court in case number
2:19-cv-01127-PA-FFM dated June 21, 2019 was dismissed
with prejudice Petitioners’ lawsuit, and is reproduced
at Appendix I. The opinion of the Ninth Circuit in case
number 19-55791 dated June 17, 2020 is reproduced at
Appendix II. The order of the Ninth Circuit denying
en banc hearing by the full court dated July 29, 2020 is
reproduced at Appendix III.
JURISDICTIONAL STATEMENT
This Court has jurisdiction pursuant to 28 U.S.C.
§1254(1) as the final judgment of the Ninth Circuit is
subject to review by this Court on a writ of certiorari.
This court has jurisdiction as the appeal arises from
the Ninth Circuit’s decision and involves constitutional
questions of federal preemption of federal outsourcing
facilities created under 21 U.S.C. §353b, and violation of
the United States’ Commerce Clause.
Petitioners seek review on this writ for the following
reasons pursuant to Rule 10 of this Supreme Court: (a) a
United States court of appeals has entered a decision in
conflict with the decision of another United States court
of appeals on the same important matter; has decided an
important federal question in a way that conflicts with
a decision by a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court’s supervisory
power (Rule 10 (a)); and a state court or a United States
court of appeals has decided an important question of
federal law that has not been, but should be, settled by

2
this Court, or has decided an important federal question
in a way that conflicts with relevant decisions of this Court
(Rule 10 (c)).
The Court has jurisdiction because this appeal is
timely, as the Ninth Circuit decision was filed on June 17,
2020; and the Ninth Circuit refusal for en banc hearing
was filed on July 29, 2020. This appeal was filed online,
on December 16, 2020. This Court requested corrections,
which are due on or before March 8, 2021.
CONSTITUTIONAL PROVISIONS
AND FEDERAL STATUTES
UNITED STATES CONSTITUTION SUPREMACY
CLAUSE ARTICLE VI CLAUSE 2
UNITED STATES COMMERCE CLAUSE ARTICLE
I § 8 CLAUSE 3
21 U.S.C. §353b Title 21 Federal Food, Drug and Cosmetic
Act “FDCA”
21 U.S.C. §336
21 U.S.C. §337(a) Title 21 FDCA
21 U.S.C. §353a Title 21 FDCA
21 U.S.C. §371 Title 21 FDCA
21 U.S.C. §379a Title 21 FDCA
21 U.S.C. §379j-62 Title 21 FDCA

3
Cal Bus & Prof. Code 4129
Cal Bus & Prof. Code 4129.1
Cal Bus & Prof. Code 4129.4
STATEMENT OF THE CASE
Petitioners Fusion IV Pharmaceuticals, Inc dba Axia
Pharmaceutical (hereinafter referenced as “Fusion IV”)
and Navid Vahedi, Pharm.D. (hereinafter referenced
as “Vahedi”), collectively “Petitioners”, appeal from the
judgment of the Ninth Circuit Court of Appeal (entered on
June 16, 2020) in the case of Fusion IV Pharmaceuticals,
Inc dba Axia Pharmaceutical and Navid Vahedi, Pharm
D. v. Anne Sodergren in Her Official Capacity as Interim
Executive Officer for the California State Board of
Pharmacy (“Respondent”) Ninth Circuit Case No. 1955791. A request for an en banc hearing was filed by
Petitioners (denied this request July 29, 2020).
Fusion IV is a federal outsourcing facility, created
by Congress in 2013 and registered pursuant to federal
enabling statute 21 U.S.C. §353b, the Compounding
Quality Act, enacted in 2013. This statute was added to
Title 21 of the Food, Drug and Cosmetic Act “FDCA”,
Title 21 Chapter 9. §353b is part of the “Drug Quality and
Security Act” which consisted of Title I “Compounding
Quality Act”, creating federal outsourcing facilities
and removing mass-compounding from “state licensed
pharmacies” entirely (relevant to this petition) and Title
II “Drug Supply Chain Security”, removing all drug
tracing from states.

4
In the same instrument where Congress enacted 21
U.S.C. §353b, it also amended 21 U.S.C. §353a to limit state
licensed pharmacies to compounding only pursuant to a
physician’s prescription and in limited amounts. See, 21
U.S.C. §353a. This amendment required submissions from
state boards of pharmacy: “The Secretary shall receive
submissions from State boards of pharmacy (1) describing
actions taken against compounding pharmacies, as
described in subsection (b) or (2) expressing concerns
that a compounding pharmacy may be acting contrary
to section 503A of the Federal Food, Drug, and Cosmetic
Act (21 U.S.C. 353a)”.
For state licensed pharmacies, Congress explained
how a state may proceed: (1) The issuance of a warning
letter, or the imposition of sanctions or penalties, by a State
for violations of a State’s pharmacy regulations pertaining
to compounding. (2) The suspension or revocation of
a State-issued pharmacy license or registration for
violations of a State’s pharmacy regulations pertaining to
compounding. (3) The recall of a compounded drug due to
concerns relating to the quality or purity of such drug.”
No such language exists in §353b.
These FDCA provisions refer to outsourcing facilities
as “federal facilities” as opposed to state licensed
pharmacies. See, 21 U.S.C. §353a. §353a(a) provides in
pertinent part: “Sections 351(a)(2)(B), 352(f)(1), and 355
of this title shall not apply to a drug product if the drug
product is compounded for an identified individual patient
based on the receipt of a valid prescription … and if the
compounding … is by … a licensed pharmacist in a State
licensed pharmacy or a Federal facility, or … a licensed
physician ...”. 21 U.S.C. §353a emphasis added.

5
Fusion IV began operations on or about January 6,
2017 after registering with the United States Food and
Drug Administration (“FDA”) pursuant to 21 U.S.C. §353b.
Four years after Congress enacted the federal statute,
California enacted Bus. & Prof. Code 4129 and 4129.1,
which defined an outsourcing facility as one licensed by the
state of California, required state licensing by the Board
of Pharmacy, investigation by the Board of Pharmacy,
oversight by the Board of Pharmacy, review of twelve
months of records and additional requirements, prior to an
outsourcing facility doing business in California. It was at
this point that California violated the Supremacy Clause
and through its enforcement violated the Commerce
Clause. Fusion IV did apply for a California license which
was denied in 2017.
In 2018, Petitioners filed a lawsuit in district court,
Fusion IV Pharmaceuticals, Inc v. Xavier Becerra et
al. case number 2:18-cv-02561-PA-FFM. Judge Percy
Anderson did not consider the preemption issues but
dismissed this matter without prejudice on July 17,
2018 stating that Petitioners’ had not exhausted their
“administrative remedies”. In 2019, Fusion IV filed a
second lawsuit alleging violation of due process and federal
preemption, again landing before Hon. Percy Anderson.
Fusion IV Pharmaceuticals Inc v. Anne Sodergren in her
official capacity, case number 2:19-CV-01127-PA-FFMx.
Judge Anderson dismissed the matter with prejudice on
June 21, 2019 without entertaining oral argument/further
briefing, after granting a cross-motion for j udgment on
the p leadings filed by the Board of Pharmacy. The district
court further ordered costs incurred by the Board to be
paid by Petitioners. Petitioners appealed each and every
holding of the district court’s June 21, 2019 decision.
The Ninth Circuit affirmed the district court judgment in

6
a four-page opinion on June 16, 2020 in the case of Fusion
IV Pharmaceuticals, Inc dba Axia Pharmaceutical and
Navid Vahedi, Pharm D. v Anne Sodergren in Her Official
Capacity as Interim Executive Officer for the California
State Board of Pharmacy, Ninth Circuit Case No. 1955791. In a unanimous decision the Ninth Circuit affirmed
the district court judge’s ruling, which had adopted the
language of the Board of Pharmacy’s brief (errors too).
The Ninth Circuit in affirming the District Court, also
requires Petitioners to pay the costs of Respondent. This
order is also appealed. The Ninth Circuit panel included
Ninth Circuit Judges Johnnie B. Rawlinson and N.R.
Smith, and District Court Judge Edward R. Korman
of the Eastern District of New York. Petitioner’s filed a
request for an en banc review. This was denied on July 29,
2020. Petitioners appeal from the judgment of the Ninth
Circuit Court of Appeal and order awarding costs of suit.
REASONS FOR GRANTING THIS WRIT
1.

Express preemption is clear in the language of the
federal statute which created “outsourcing facilities”
(the FDCA refers to these as “federal facilities” as
opposed to “state licensed pharmacies”). Federal law
defines what a federal outsourcing facility is: in order
to become an outsourcing facility, it must register
with the federal government; and the drug must be
compounded in an outsourcing facility “in which the
compounding of drugs occurs only in accordance with
this section”. 21 U.S.C. §353b(a)(11). Such language is
repeated throughout this section of the FDCA.

2.

California Bus. & Prof. Code §4129 and §4129.1 violate
the Supremacy Clause as this state law redefines an

7
“outsourcing facility” as one having been licensed and
regulated by the State of California.
3.

The decision by the Ninth Circuit is in conflict with
decisions of this Supreme Court in Kansas v. Garcia
decided March 3, 2020 which held “if federal law
imposes restrictions or confers rights on private
actors and a state law confers rights or imposes
restrictions that conflict with the federal law, the
federal law takes precedence and the state law is
preempted”. U.S. Const. art. 6, cl. 2; Kansas v.
Garcia (2020) 140 S. Ct 791 (and Sperry v. Florida
(1963) 373 U.S. 379, Douglas v. SeaCoast Products,
Inc. (1977) 431 U.S. 265; Pennsylvania v. Wheeling
& Belmont Bridge Co. (1852) 54 U.S. 518, 566).

4.

Pursuant to FDCA 21 U.S.C. §379a: “In any action to
enforce the requirements of this chapter respecting
a device, tobacco product, food, drug, or cosmetic the
connection with interstate commerce required for
jurisdiction in such action shall be presumed to exist.”

5.

Pursuant to FDCA 21 U.S.C. §371: “The authority to
promulgate regulations for the efficient enforcement
of this chapter, except as otherwise provided in this
section, is vested in the Secretary.” California law and
the Ninth Circuit’s decision regarding preemption
are in direct opposition to §371 which reserves
‘enforcement’ (of an FDCA-created facility) to the
United States. The FDCA is viewed as a whole. FDA
v. Brown & Williamson (2000) 529 U.S. 120.

6.

The Ninth Circuit decision cited language not
contained in the statute to the effect that in

8
quotation marks that the “DQSA clearly allows for
complementary state regulation[s]”, which is nowhere
to be found in the text of the statute applicable to
outsourcing facilities or state-licensed pharmacies,
or any FDA guidance materials.
7.

The Ninth Circuit disregarded the language of the
statute, the FDCA, or the amendment to FDCA
§353a - which did provide for state involvement of
‘state licensed pharmacies’, the single allowance in
§353b which gave states continuing permission to
collect fees for a ‘pharmacy’ if one was present in
the federal facility. The Ninth Circuit disregarded
the preemptive language in the statute requiring
action by the Secretary of the Department of Health
and Human Services (with 182 instances of ‘the
Secretary shall’); the language regarding inspection
mandate, training of inspectors and fees imposed
by the Secretary to cover exclusively the oversight
of outsourcing facilities; the detailed requirements
of containers/labels; exemptions for outsourcing
facilities; and mandated FDA reports/guidance which
state that the FDA does not plan to ‘take action’ or
enforce a provisionary mandate (binding precedent
holds this enforcement by the federal government
preempts state ‘enforcement’).

8.

T he Ni nth Ci rcu it held Ca l i for n ia l icensi ng
requirements do not violate the “dormant” commerce
clause principles. However, where a federal statute
exists, “dormant” commerce clause analysis is an
incorrect analysis and thus the Ninth Circuit decision
goes against binding Supreme Court precedent
stating this principle of construction. Any measures

9
which frustrate the purpose of Congress violate the
commerce clause.
9.

The Ninth Circuit stated that because there was no
“separate preemption clause” in the federal statute,
there could be no preemption. This goes against
binding Supreme Court precedent which allows
preemption to be found if the language of the statute
provides for enforcement and oversight by the federal
government exclusively, such as language providing
for “only in compliance with this” statute.

10. The Ninth Circuit decision, finding that there was
no pervasive “scheme of federal regulation”, was
clear error and goes against binding Supreme
Court precedent such as Hines v. Davidowitz (1941)
312 U.S. 52. There is evidence of congressional
intent in multiple bills introduced by Congress,
after quite a number of incidents and a final tragic
incident resulting from one state placing adulterated
compounds into interstate commerce; committee
reports; full chamber hearings reflecting intent to
provide exclusive oversight. In 2013 Congress enacted
21 U.S.C. 353b, overhauling the entire field of mass
compounding which was redrawn into a federally
supervised system with federal standards - current
Good Manufacturing Practices (CGMP).
11. The Ninth Circuit erroneously stated California law
does not “conflict” with the federal statute because
a California license only requires a federal license.
This is not true or accurate. By its very existence
California law frustrates the federal right to conduct
business as a federal outsourcing facility. California

10
law redefines what an outsourcing facility is and
causes the entire authority of the federal statute
to become dependent upon the state of California’s
determination, inspection, opinion, review, oversight,
regulation, discipline [1] , fee requirements, and
decision.
12. California law and the Ninth Circuit decision conflict
with the ‘discretionary regulation process’ of the
FDCA, which provides in 21 U.S.C. §336: “Nothing
in this Act shall be construed as requiring the FDA
to report for prosecution minor violations of this Act
whenever it believes that the public interest will be
adequately served by a suitable written notice or
warning.” According to the FDCA, the FDA has an
explicit grant of discretionary authority, whereas
California law provides that it alone defines what an
outsourcing facility is, in California and outside of
California as well, and that California regulations are
to be followed1, resulting in an outsourcing facility
to be subject to California licensing, regulations and
discipline which differ from published FDA guidance/
rules.
13. The Ninth Circuit opinion conflicts with the following:
the FDCA provides in 21 U.S.C. §337a: “proceedings
for the enforcement, or to restrain violations, of this
Act shall be by and in the name of the United States.”
According to §337a, a state may not ‘enforce’ this
Act. Enforcement necessary includes the licensing
requirements of an entity created under the FDCA.
As provided for in 21 U.S.C. §336, the FDCA may
choose to not pursue prosecution of injunction for
1. Bus & Prof Code 4129.1.and 4129.4

11
minor violations of this chapter whenever it believes
that the public interest will be adequately served by
a suitable written notice or warning.
14. Notably in 21 U.S.C. §337a, subsection (b) provides
that a “State may bring in its own name and within
its jurisdiction proceedings for the civil enforcement,
or to restrain violations of section 341, 343(b), 343(c),
343(d), 343(e), 343(f), 343(g), 343(h), 343(i), 343(k),
343(q), or 343(r) of this title if the food that is the
subject of the proceedings is located in the State. The
failure to include 21 U.S.C. §353b is instructive as to
the FDCA’s intent to preempt state enforcement.
15.

The Ninth Circuit opinion contradicted its own
decision in 2019 which held that California law was
impliedly if not expressly preempted by the FDCA
because of the FDCA’s ‘discretionary enforcement
process’. In Borchenko v. L’Oreal USA, Inc., involving
the California’s Sherman Food, Drug, and Cosmetic
Law, which mirrored the FDCA, the court held state
“claims” were impliedly preempted by the FDA
where the “claim” existed solely by virtue of the
FDCA and sought to enforce provisions of the FDCA,
because it conflicted with the FDCA discretionary
enforcement process. Borchenko v. L’Oreal USA,
Inc. (C.D.Cal.2019) 389 F.Supp.3d 769 (emphasis
added). Although the law in question in Borchenko
‘mirrored’ FDCA language, it still was found to be
preempted. Bus. & Prof. Code §4129 et seq does not
mirror at all federal law but redefines and attempts
to ‘trump’ federal law.

16. The Ninth Circuit opinion conflicts with FDCA
language requiring inspections of outsourcing

12
facilities to be done by accredited inspectors chosen
by the facility. See, 21 U.S.C. §374(g)(1). Conflicting
California law requires inspections and approval
pursuant to Bus. & Prof. Code §4129.1 and by state
‘personnel’ who are not required to be accredited and
are not chosen by the facility for its annual or interim
inspections (with such inspection fees to be paid to the
Secretary).
17. The Ninth Circuit’s decision conf licts with the
language of FDCA 21 U.S.C. §379a: The FDCA
has statutorily created a presumption of existence
of jurisdiction and a connection with interstate
commerce. In any action to enforce the requirements
of this chapter respecting a device, tobacco product,
food, drug, or cosmetic the connection with interstate
commerce required for jurisdiction in such action
shall be presumed to exist.” The Ninth Circuit held
that Petitioners had not established that California
law touched at all upon interstate commerce.
18. FDCA expressly reserved authority to enforce the
operation of outsourcing facilities and thus preempts
state enforcement. Enforcement necessarily includes
‘licensing’ and regulation. Publications by the FDA
have indeed cautioned states to not legislate in conflict
with the federal law.
19. This petition presents important federal questions
as California and other states remain in conflict and
frustrate the purpose of the Compounding Quality
Act in 21 U.S.C. §353b.
20. The health and welfare of the citizens of the United
States is affected to a great extent by the confusion

13
created by disparate state regulation of federal
outsourcing facilities which was the reason Congress
enacted the federal statute.
21. Federal outsourcing facilities are the exclusive means
of placing compounded medications into interstate
commerce in the event of a “shortage” of FDA
approved pharmaceutical drugs, or for a clinical need
for such compounds, and in the event of a national
emergency.
SUMMARY OF ARGUMENT
This matter presents the question of whether 21
U.S.C. §353b known as the “Compounding Quality Act”
(part of the “Drug Quality and Security Act” enacted in
2013 and now a part of the FDCA) preempts California
law, specifically Business and Professions Code §4129,
§4129.1 and §4129.4- which is specifically preempted
by the language of the statute, directly conflicts with 21
U.S.C. §353b and the FDCA, and frustrates a federal
statutory ‘right’ to engage in the business of an outsourcing
facility. This matter also presents the question of whether
California law violates the U.S. Constitution’s Commerce
Clause.
The FDCA itself provides for preemption. The
authority to promulgate regulations for the enforcement
of the FDCA ... is vested in the Secretary. 21 U.S.C. §337a.
Hearings authorized or required ... shall be conducted
by the Secretary or such officer or employee as he may
designate for the purpose. 21 U.S.C. §337a .
21 U.S.C. §353b created “federal outsourcing
facilities”, which are “federal” facilities (see 21 U.S.C.

14
§353a) and are the only vehicles to mass-compound drugs/
medications, where there is a shortage of FDA approved
medications or a clinical need, to be placed in interstate
commerce.
Prior to 21 U.S.C. §353b, state licensed pharmacies
accomplished the mass-compounding without limit, with
varying state requirements and oversight, and very little if
any federal oversight. This “confusion” and resultant poor
quality of compounds led to a large number of illnesses
and deaths due to tainted compounds being distributed
through interstate commerce.
A 2012 meningitis incident wherein sixty-four
Americans died and many hundreds/thousands more
became severely ill, leading Congress to consider multiple
bills, hold hearings, enacted 21 U.S.C. §353b as part of
the FDCA, and also enacted drug tracing legislation.
Congress also simultaneously amended former 21 U.S.C.
§503 which became §353a, creating federal oversight
for state licensed pharmacies which thereafter were
forbidden to compound mass quantities and were limited
to compounding for identified patients, pursuant to state
law and licensing.
21 U.S.C. §353b “created” outsourcing facilities
and a federal FDA oversight plan at the direction of
the Secretary of the Department of Health and Human
Services. Pursuant to this enabling statute, outsourcing
facilities were to register with the federal government,
comply with all current Good Manufacturing Practices,
undergo investigations and audits by federal employees,
and operate according to the strictures of 21 U.S.C.
§353b and guidelines proposed by the FDA which also

15
provided for discretionary oversight and regulation.
Indeed, the statute provides for specific preemption and
exclusivity: “Outsourcing facility requirement: The drug
is compounded in an outsourcing facility in which the
compounding of drugs occurs only in accordance with this
section”. §353b(a)(11) emphasis added.
Within this statute is no mention of state licensing
or oversight (unlike 21 U.S.C. §353a relative to state
licensed pharmacies). The only permission given the
states in §353b is to collect ‘fees’ for a state licensed
pharmacy, if such is located within the same structure as
the outsourcing facility.
California enacted legislation four years later in 2017
which required a federal outsourcing facility apply for and
be granted a state license by the Board of Pharmacy prior
to doing business in California. Cal. Bus. & Prof. Code
§4129, and §4129.1. Outsourcing facilities are also subject
to California regulations, inspections, fees and discipline
including cessation of business and arrest. Bus. & Prof.
Code §4129 redefines “outsourcing facility” as one that is
licensed in California.
Since 2013, a majority of states have created
inconsistent legislation requiring licensing/oversight/
regulation, which vary by each state, similar to how states
operated prior to 21 U.S.C. §353b, thus creating a web
of differing requirements among the various states and
causing, again, extensive confusion as to the manner in
which outsourcing facilities could place mass compounded
medications (in the case of a shortage) into interstate
commerce. The FDA realized this and cautioned states
against legislation which conflicts with federal law.

16
Express preemption language is clear throughout
§353b, which created outsourcing facilities. There are
182 instances which state the Secretary ‘shall’ act “An
outsourcing facility is exempt from the requirements
of FDA approval, directions for use on labels, and
requ i rements for manu factu rers, re -packagers,
wholesalers, distributers and dispensers] “if: the drug
is compounded in an outsourcing facility in which the
compounding of drugs occurs only in accordance with
this section”. 21 U.S.C. §353b(a)(11) emphasis added.
The FDCA provides for the discretionary regulation and
enforcement of outsourcing facilities. At the same time as
21 U.S.C. §353b was enacted, Congress added 21 U.S.C.
§379j-62 which provides for the authority to assess and
use outsourcing facility fees for oversight/inspection. The
FDCA may not be ‘enforced’ by other than the United
States. 21 U.S.C. §337(a).
The reason for Petitioners seeking a writ of certiorari
and review by this Supreme Court is first, the Ninth
Circuit’s error and conflict with Supreme Court precedent
and its own precedent as outlined above, and to resolve
conflicting state regulations and licensing requirements.
California law facially disallows outsourcing facilities to
conduct business despite being approved and registered
with the federal government.
The necessity of placing medications into interstate
commerce remains a concern of national importance and
national security to a certain extent. Outsourcing facilities
are the only means of accomplishing this.

17
LEGAL AUTHORITIES FOR
GRANTING THE WRIT
Petitioners ask this Court to review federal preemption
of federal outsourcing facilities in 21 U.S.C. §353b. Mass
compounding is regulated by the FDCA requiring
compliance with federal current Good Manufacturing
Practices “CGMP”, and oversight is conducted by the
FDA. FDCA enforcement expressly preempts any state
laws relevant to 21 U.S.C. §353b pursuant to 21 U.S.C.
§337(a). Enforcement of the FDCA (which created
outsourcing facilities) is only to be brought by the United
States. Further, pursuant to 21 U.S.C. §353b, the FDA
is to publish guidance documents advising outsourcing
facilities of its findings, and its intent to prosecute, or to
not prosecute/investigate. This discretionary enforcement
and prosecution of the FDCA and FDA has long been
understood to preempt state law and enforcement
(discussed herein). The language is very specific in 21
U.S.C. §353b(b). “In order to become an outsourcing
facility .. a facility shall register with the Secretary ...
And indicate whether the outsourcing facility intends to
compound a drug that appears on the list in effect under
§356e of this title during the subsequent calendar year”
(“list” meaning a list of drugs which have been reported as
in ‘shortage’). This statute defines an outsourcing facility
as “a facility at one geographical location or address that
(i) is engage in the compounding of sterile drugs; (ii) has
elected to register as an outsourcing facility; and (iii)
complies with all of the requirements of this section”. 21
U.S.C §353b(d)(4)(A).

18
I.

EXPRESS PREEMPTIVE LANGUAGE IS IN
21 U.S.C. 353b WHICH THE NINTH COURT
FAILED TO CONSIDER AS WELL AS THE
OBVIOUS IMPLIED PREEMPTION

The Supremacy Clause, U.S. Const., Art. VI, cl. 2,
invalidates state laws that “interfere with, or are contrary
to,” federal law. Gibbons v. Ogden, 9 Wheat. 1, 211, 6 L.Ed.
23 (1824) (Marshall, *713 C.J.). Congress is empowered to
pre-empt state law by so stating in express terms. Jones
v. Rath Packing Co. (1977) 430 U.S. 519, 525.
The Ninth Circuit in its opinion stated that because
there was no separate preemption clause, that Congress
did not intend to preempt state law. Petitioners contend
that 21 U.S.C. §353b preempts state law due to express
preemption found in the preemptive language and the
enactment of 21 U.S.C §353a, and in the establishment
of a federal right to engage in interstate commerce;
language within the statute itself which provides for
express preemption; FDCA express preemption in the
enforcement of Title 21; lack of any mention of state
involvement as compared to the language in 21 U.S.C.
353a enacted the same day relevant to state-licensed
pharmacies; field and implied preemption as a result of
congressional intent; the expansive scheme of 21 U.S.C.
353b in conjunction with the simultaneous enactment of
related Acts and amendment of laws relating to ‘state
licensed pharmacies’; conflict preemption as a result of
California law’s requirement of a ‘license’ in disregard
for the federal right; California’s rewriting of the federal
statute; California’s frustration of the purpose of Congress
to create federal facilities which formerly were regulated
by states (resulting in death and illness over a period of

19
years and culminating in a 2012 meningitis outbreak); and
laws which conflict with FDCA regulation through the
FDA (who has published intent and guidance documents
and advised states to refrain from enacting legislation
which conflicts with federal law).
Although here there is preemptive language, there is
also implied preemption gathered from the congressional
record and actual life circumstance. Congressional
intent to pre-empt all state law in a particular area
may be inferred where the scheme of federal regulation
is sufficiently comprehensive to make reasonable the
inference that Congress “left no room” for supplementary
state regulation. Rice v. Santa Fe Elevator Corp. (1947)
331 U.S. 218, 230. Pre-emption of a whole field also will
be inferred where the field is one in which “the federal
interest is so dominant that the federal system will be
assumed to preclude enforcement of state laws on the same
subject.” Ibid.; see Hines v. Davidowitz (1941) 312 U.S.
52; Hillsborough Cty., Fla. v. Automated Med. Labs., Inc.
(1985) 471 U.S. 707, 712–13. The Ninth Circuit decision
flies in the face of all of the above cited decisions of this
Court dating back to 1824.
II.

E X PR E S S PR EE M P T ION I S I N T H E
L A N GUAGE OF T H E S TAT U T E A N D
ENFORCEMENT PROVISIONS OF THE FDCA

21 U.S.C. §353b clearly provides the definition of what
an outsourcing facility is: “Upon electing and in order to
become an outsourcing facility .. a facility shall register
with the Secretary …”. §353b(b)(1). The federal law defines
an outsourcing facility as “a facility that elects to register
as an outsourcing facility if each of the following conditions

20
is met: The drug is compounded in an outsourcing
facility that is in compliance with the requirements of
subsection (b)” (§353b(a)(1)); and “drugs compounded in
an outsourcing facility in which the compounding of drugs
occurs only in accordance with this section.” (§353b(a)
(11)). The words “only in accordance with this section” is
unquestionably preemptive language. California law in
Bus. & Prof. Code §4129 and §4129.1 attempts to rewrite
this federal statute to define an outsourcing facility as one
which is licensed by the state of California.
21 U.S.C. §337 provides: “enforcement” shall be only
before the United States. Long-standing precedent also
finds ‘express’ preemption where authority to prosecute
and investigate is granted by the FDCA to the FDA
which has been codified in §377. The FDA has published a
number of “guidance” documents which explicitly state the
FDA does not intend to investigate or take action against
outsourcing facilities for certain actions.
III.

THE NINTH CIRCUIT DECISION IS IN CLEAR
CONFLICT WITH DECISIONS BY THIS
COURT WHICH HOLD A FEDERAL LICENSE
OR RIGHT MAY NOT BE FRUSTRATED BY
STATE LAW

California law redefines ““outsourcing facility” and
causes the entire authority of the federal statute to become
dependent upon the state of California’s determination,
inspection, opinion, review, oversight, regulation,
discipline, fee requirements, and decision. The Ninth
Circuit opinion contradicts long-standing Supreme Court
precedent such as Sperry v. Florida its state law from
interfering with a “license” or federal “right” to engage

21
in an activity. Sperry v. Florida (1963) 373 U.S. 379. Even
stopping the preemption consideration at this point, one
would find California law is preempted.
This Court reaffirmed this point of law in the 2020 case
of Kansas v. Garcia (2020) 140 S. Ct 791 where it stated:
“If federal law imposes restrictions or confers rights on
private actors and a state law confers rights or imposes
restrictions that conflict with the federal law, the federal
law takes precedence and the state law is preempted”
and “In all cases, the federal restrictions or rights that
are said to conflict with, and therefore preempt, state law
must stem from either the Constitution itself or a valid
statute enacted by Congress”. U.S. Const. art. 6, cl. 2.
The Ninth Circuit decision conflicts with its own
decision affirming Sperry v. Florida, in a 2017 decision
of Nw. Immigrant Rights Project v. Sessions: “It is well
established that Congress may authorize agencies to
regulate attorneys appearing before them.” See Sperry
v. Florida (1963) 373 U.S. 379. In such cases, ‘a State
may not enforce licensing requirements which, though
valid in the absence of federal regulation, give the State’s
licensing board a virtual power of review over the federal
determination that a person or agency is qualified and
entitled to perform certain functions, or which impose
upon the performance of activity sanctioned by federal
license additional conditions not contemplated by
Congress.’” Nw. Immigrant Rights Project v. Sessions
(2017) No. C17-716 RAJ) U.S.Dist.LEXIS 118058, at *20
(citing Sperry v. Florida (1963) 373 U.S. 379). A state
may not further create licensing requirements where a
federal license has been granted. See, Sperry v. Florida
(1963) 373 U.S. 379; Pennsylvania v. Wheeling & Belmost

22
Bridge Co. (1852) 54 U.S. 518; (denial of a state license)
Douglas v. SeaCoast Products, Inc. (1977) 431 U.S. 265.
Longstanding Supreme Court precedent dictates
that state laws may not “hinder or obstruct the free
use of a license granted under an act of Congress,” or
impose additional licensing requirements that impede
activity sanctioned by a federal license.” Pennsylvania v.
Wheeling & Belmont Bridge Co. (1852) 54 U.S. 518, 566
(emphasis added). A state agency may not enforce licensing
requirements which give the State’s licensing board a
virtual power of review over the federal determination.
Sperry v. Florida (1963) 373 U.S. 379, 385.
As California Bus. & Prof. Code §4129, §4129.1 and
§4129.4 are written, an outsourcing facility is defined as
one which has received a California ‘license’ and complied
with a laundry list of California requirements/regulations.
Thus, the federal ‘right’ to engage in interstate commerce
is violated essentially by the mere existence of this
state requirement. An ongoing violation has continued
since January of 2017. Bus. & Prof. Code §4129 and
§4129.1, violates the Supremacy clause, in that this state
law redefines an “outsourcing facility” as one having
been licensed and regulated by the state of California,
regardless of its status as a registered outsourcing facility
under the federal enabling statute 21 U.S.C. §353b.
IV.

THE EFFECT ON INTERSTATE COMMERCE
IS ESTABLISHED PURSUANT TO STATUTE
AS WELL AS FACT

Pursuant to 21 US.C. §379a there is a presumption of
interstate commerce connection: “In any action to enforce
the requirements of this chapter respecting a device,

23
tobacco product, food, drug, or cosmetic the connection
with interstate commerce required for jurisdiction in such
action shall be presumed to exist.” Emphasis added.
The Ninth Circuit’s decision finding “no” violation of
the “dormant” commerce clause (also an error), is in direct
opposition to this federal statute and precedent set by the
Supreme Court and ordinarily followed by all lower courts.
V.

FDCA IS REGULATED BY THE SECRETARY
AND STATE LAWS CONFLICTING WITH
FEDERAL REGULATIONS ARE INVALID

Pursuant to 21 U.S.C. §371: “The authority to
promulgate regulations for the efficient enforcement
of this chapter, except as otherwise provided in this
section, is vested in the Secretary.” This itself is express
preemption and applies to the entire “chapter” including
21 U.S.C. §353b (Chapter 9).
This statute further provides for ‘regulation’ only
by the Secretary and through mandated guidance
documents published by the FDA: “The Secretary shall
develop guidance documents with public participation
and ensure that information identifying the existence
of such documents and the documents themselves are
made available to the public both in written form and,
as feasible, through electronic means. Such documents
shall not create or confer any rights for or on any person,
although they present the views of the Secretary on
matters under the jurisdiction of the Food and Drug
Administration.” 21 U.S.C. §371(h)(1)(A). Further,
“although guidance documents shall not be binding on
the Secretary, the Secretary shall ensure that employees
of the Food and Drug Administration do not deviate

24
from such guidance[s] without appropriate justification
and supervisory concurrence.” 21 U.S.C. §371(h)(1)(B).
California law and the Ninth Circuit’s decision are in
direct opposition to this federal statute which reserves
‘enforcement’ and regulation of an FDCA created facility
to the United States.
VI.

T H E L A N GUAGE O F T H E S TAT U T E
EXPLICITLY LIMITS STATE CONTROL TO
STATE LICENSED PHARMACIES

The Ninth Circuit decision is erroneous in its
understanding of the federal statute which was made clear
by its citing “decisive” language which is not contained
in the statute, even placing such language in quotation
marks: “the DQSA clearly allows for complementary state
regulation[s]”. These words are nowhere to be found in the
text of the statute applicable to outsourcing facilities, or
any related statute for that matter, and are not contained
in any FDA publications/guidance.
The Ninth Circuit ignored all of the following:
the clear language of the statute, the amendment to
§353a which did provide for state involvement of ‘state
licensed pharmacies’, the single allowance in §353b which
gave states continuing permission to collect fees for a
‘pharmacy’ if one was present in the federal facility, the
plethora of preemptive language in the statute requiring
action by the Secretary of the Department of Health
and Human Services (182 instances of ‘the Secretary
shall’), the detailed inspection mandate and training of
inspectors, the detailed fee usage by the Secretary to
cover exclusively the oversight of outsourcing facilities,
the detailed requirements of ‘containers’ and labels

25
and exemptions for outsourcing facilities, and others
quite visible in the statute itself including mandated
FDA reports and guidance to provide instruction for
the facilities, most of which are published with a clause
advising that the FDA does not plan to ‘take action’ or
enforce a provisionary mandate, pending a final rule.
VII.

THE LANGUAGE OF THE STATUTE LIMITING
STATE INVOLVEMENT IS CLEAR

Nowhere does 21 U.S.C. §353b contemplate state
regulation or oversight, except for the single authorization
to collect fees. If one examines the statute, it becomes
apparent that 21 U.S.C. §353b does provide for state
involvement in collecting fees if a pharmacy is present
within an outsourcing facility. The Ninth Circuit did not
discuss the federal statute’s explicit language at all.
The federal law in question created outsourcing
facilities (as opposed to §353a relating to ‘state licensed
pharmacies’ - providing for extensive state involvement),
referred to as ‘federal’ facilities. §353b has no language
indicating state oversight is permissible (beyond ‘fees’).
The FDCA does reference ‘state pharmacies’ which is
evidence that Congress intended to allow states to license
the ‘pharmacy’ and collect those licensing fees, and to not
license or collect fees relating to the outsourcing facility.
VIII. FIELD PREEMPTION IS CLEAR FROM
T H E S T A T U T O RY L A N G U AG E A N D
CONGRESSIONAL INTENT
In addition to the events leading to Congressional
hearings and enactment of several Acts by Congress

26
in November of 2013, federal oversight is mandated
by §353b. The words ‘established by the Secretary’ or
mandating action by the ‘Secretary’ appears 182 times in
the Compounding Quality Act, referencing the Secretary
of HHS. Also, the United States’ “constitutional structure
does not permit a court to rewrite a statute that Congress
has enacted.” Puerto Rico v. Franklin-California TaxFree Trust (2016) 136 S. Ct. 1938.
IX.

THE ‘DORMANT’ COMMERCE CLAUSE IS AN
INCORRECT ANALYSIS WHERE CONGRESS
HAS ACTED

The Ninth Circuit decision adopted the erroneous
analysis proffered by the Board of Pharmacy - that
California licensing requirements do not violate the
“dormant” Commerce Clause principles. However, where
a federal statute and right/license exists, this “dormant
commerce clause” analysis is inapplicable.
This case does not implicate the “dormant” Commerce
Clause. The issue before the Court is a pure Commerce
Clause analysis because where Congress has acted and
legislated on the matter, the commerce clause is not
‘dormant’. See, Western & Southern Life Ins. v. State
Board of California (1981) 451 U.S. 648. Thus, a similar
determination of Congressional intent/frustration of
legislative purpose is necessary to determine a violation,
as well as a factual inquiry as to whether compounded
drugs are being restricted entirely from being placed
into interstate commerce. The FDCA statutorily
establishes interstate commerce, and the burden on
interstate commerce is unquestionably affected because
outsourcing facilities were created for this reason – to
place compounded drugs into interstate commerce.

27
The Ninth Circuit erroneously stated California’s
licensing requirement and statutes “do not violate
dormant Commerce Clause principles”. Memorandum
page 4, citing Nat’l Ass’n of Optometrists & Opticians
v. Harris (a dormant commerce clause case). Nat’l Ass’n
of Optometrists & Opticians v. Harris (2013) 682 F.3d
1144. Such precedent is not applicable here, as its concern
was in weighing the burden on interstate commerce from
laws absent any Congressional act. This sort of analysis
is inappropriate and misplaced.
As a result of California laws, Fusion IV is unable to
operate as an outsourcing facility in California, or any
state requiring a California ‘license’, despite congressional
authorization to do so. This is not a case where two
competing private companies are bickering over the ability
to “compete” in the sale of “goods”. Outsourcing facilities
place medications into interstate commerce. The ‘burden’
is clearly excessive in light of the congressional interest
being “compelling” on a national level – which trumps
the smaller, self-centered and conflicting states’ interests
(the “mess” of differing state interests/oversight was the
reason for Congress’ enactment of 21 U.S.C. 353b in 2013).
The Ninth Circuit failed to consider the congressional
interest in “uniformity” - also conflicting with this Court’s
binding precedent in Hall v. DeCuir (1877) 95 U. S. 485
and Southern Pacific Co. v. Arizona (1945) 325 U. S. 761.
X.

CONGRESSIONAL INTENT TO DOMINATE
THE FIELD AND REPLACE ALL STATE
LAWS IS UNQUESTIONABLE

In 2013, Congress created outsourcing facilities to
provide for placing sterile compounds into interstate

28
commerce. Congress limited state licensed pharmacies to
physician prescriptions. Congress required outsourcing
facilities to operate pursuant to a federal CGMP under
the guidance of the FDCA/FDA.
The Ninth Circuit stated w ithout explanation
that the federal statute is not a pervasive “scheme of
federal regulation”. As with its “invented” language,
likely the Court did not comprehend that Congress had
created outsourcing facilities to overhaul and replace
an incompetent dangerous web of state “pharmacies”
engaged in mass- compounding. This is not a case where
Congress merely imposed a “regulation” upon an already
existing industry.
The Ninth Circuit’s decision goes against binding
Supreme Court precedent such as Hines v. Davidowitz
(1941) 312 U.S. 52; Hillsborough Cnty., Fla. (1985) 471
U.S. 707, 714; affirmed by Chae v. SLM Corp. (9th Cir.
2010) 593 F.3d 936, 942. In re Chrysler (9th Circuit) held
that “states are precluded from regulating conduct in a
field that Congress ... has determined must be regulated
by its exclusive governance; such preemption can be
inferred from a framework of regulation so pervasive
that Congress left no room for the states to supplement
it ...” In re Chrysler LLC (2009) 576 F.3d 108 at 927.
Emphasis added. Pre-emption of a whole field also will
be inferred where the field is one in which “the federal
interest is so dominant that the federal system will be
assumed to preclude enforcement of state laws on the
same subject.” Hines v. Davidowitz (1941) 312 U.S. 52. In
Pom Wonderful v. Coca-Cola, this Court found the FDCA
preempted California’s conflicting laws: “Either [the state
law claims] impose obligations identical to those in the

29
FDCA … or they impose obligations additional to those
in the FDCA, in which case they are preempted”. In Pom
Wonderful, this Court found California was attempting to
impose laws in addition to those of the FDCA, thus they
were preempted. Pom Wonderful LLC v. The Coca-Cola
Company, et al., No. 2:08-cv-06237-SJO-FMO, Docket
Entry 417 (C.D. Cal. Feb. 13, 2013).
21 U.S.C. §377 prohibits “enforcement” by other
than the United States. The California licensing scheme
attempts to add licensing, regulation and discipline
requirements for outsourcing facilities which are
preempted by the FDCA and 21 U.S.C. §377. As the
Ninth Circuit ‘cited’ but did not do: “When confronted
with a preemption statute, a court must “’identify the
domain expressly pre-empted by that language.’ [A court]
use[s] the text of the provision, the surrounding statutory
framework, and Congress’s stated purposes in enacting
the statute to determine the proper scope of an express
preemption provision.” Chae v. SLM Corp. (9th Cir. 2010)
593 F.3d 936, 942.
XI.

THE FDCA HAS CREATED A DISCRETIONARY
R E GU L AT I O N A N D E N F O R C E M E N T
PROCESS WHICH EXPRESSLY PREEMPTS
STATE LAW

California law and the Ninth Circuit decision conflict
with the ‘discretionary regulation process’ of the FDCA,
which provides in 21 U.S.C. §336: “Nothing in this Act
shall be construed as requiring the FDA to report for
prosecution . . . minor violations of this Act whenever it
believes that the public interest will be adequately served
by a suitable written notice or warning.” According to

30
this provision of the FDCA, the FDA has an explicit
grant of discretionary authority. California law provides
that California defines what an outsourcing facility is,
and California regulations are to be followed. As a result
outsourcing facilities are unable to operate despite
Congressional authorization.
XII.

A STAT U TE CREATED BY CONGRES S
T O A DDRE S S A N D CA RRY OU T T H E
EXECUTION OF THE DRUG QUALITY AND
SECURITY ACT AND THE COMPOUNDING
QUALITY ACT MAY NOT BE BURDENED BY
CONFLICTING STATE LAW

In McCulloch v. Maryland and Gibbons v. Ogden,
Chief Justice John Marshall stated that “the states have
no power, by taxation or otherwise, to retard, impede,
burden, or in any manner control, the operations of the
constitutional laws enacted by Congress.” The FDCA
provides in 21 U.S.C. §337a: “proceedings for the
enforcement, or to restrain violations, of this Act shall
be by and in the name of the United States.” Because the
FDCA ‘created’ outsourcing facilities and has authorized
the HHS Secretary to have oversight, provide guidance,
and publish final rules, a state law which purports to ‘bar’
a facility entirely based on state(s) law(s) and then to have
it subject to state regulation (conflicting with CGMP) is
clearly invalid.
According to §337a, a state may not ‘enforce’ the
FDCA. Enforcement necessarily includes the licensing
requirements of an entity created under the FDCA.
As Supreme Court precedent established, if an ‘action’
arises due to the existence of the FDCA, it is preempted.

31
Only the United States may enforce the FDCA. See,
Pom Wonderful, LLC v. Coca-Cola Co. (2014) 573
U.S.102 (overturning Ninth Circuit Court). Under
“prohibited acts” of the FDCA, the FDCA preempts state
enforcement, including enforcement regarding the resale
of a compounded drug that is labeled “not for resale” in
accordance with §353b of this title, or the intentional
falsification of a prescription, or “the failure to report
drugs or adverse events by an entity that is registered in
accordance with subsection (b) of section 353b of this title.”
21 U.S.C.A. §331ccc (i.e., outsourcing facilities).
As provided for in 21 U.S.C. §336, the FDCA may
choose to not pursue prosecution of injunction for minor
violations whenever it believes that the public interest
will be adequately served by a suitable written notice or
warning. And as provided in 21 U.S.C. §337a (except as
provided in subsection (b)), proceedings for enforcement,
or to restrain violations, shall be by and in the name
of the United States. Notably, subsection (b) provides
that a “State may bring in its own name and within its
jurisdiction proceedings for the civil enforcement, or to
restrain violations of section 341, 343(b), 343(c), 343(d),
343(e), 343(f), 343(g), 343(h), 343(i), 343(k), 343(q), or 343(r)
of this title if the food that is the subject of the proceedings
is located in the State. The failure to include 21 U.S.C.
§353b is instructive as to the FDCA’s intent to preempt
state enforcement.

32
XIII. C A L I F O R N I A L AW I S I M P L I E D LY
P R E E M P T E D D U E T O T H E F D C A’ S
DISCRETIONARY ENFORCEMENT PROCESS
WHICH THE NINTH COURT RECOGNIZED
IN 2019
The Ninth Circuit contradicted its decision in
2019 holding that California law was impliedly if not
expressly preempted by the FDCA because of the FDCA’s
‘discretionary enforcement process’. In Borchenko v.
L’Oreal USA, Inc., a California Unfair Competition
Law claim alleging a cosmetics company manufactured,
marketed, sold, and distributed products that made false
representations. Consumers brought an action under the
Sherman Act which mirrored the FDCA. The 9th Circuit
held this law was impliedly preempted by the FDCA
where the claim existed solely by virtue of FDCA and law
referencing the FDCA (and sought to enforce provisions
of the FDCA) thus conflicting with FDCA discretionary
enforcement process. Borchenko v. L’Oreal USA, Inc.
(C.D.Cal.2019) 389 F.Supp.3d 769. Emphasis added.
Although the state law in Borchenko ‘mirrored’ FDCA
language it still was found to be preempted. The Ninth
Circuit’s opinion herein, where state law does not ‘mirror’
federal law, conflicts with its own precedent decided
in the same year with the same FDCA discretionary
enforcement at issue.
XIV. FDCA LANGUAGE REQUIRES FEDERAL
E N F OR C EM E N T BY AC C R E DI T E D
INSPECTORS
The Ninth Circuit opinion conf licts with FDCA
language requiring inspections of outsourcing facilities

33
by accredited inspectors chosen by the facility. Pursuant
to 21 U.S.C. §374(g)(1): “The Secretary shall, subject to
the provisions of this subsection, accredit persons for the
purpose of conducting inspections of establishments that
compound ... The owner ... may ... select an accredited
person to conduct such inspections.” The Ninth Circuit
and California law conflict with this, as California law
requires inspections and approval pursuant to California
regulation (§4129.1) and by state ‘personnel’ who are not
required to be accredited and are not chosen by the facility
(inspection fees to be paid to the Secretary).
XV.

F D CA CR EAT ED A STAT U T ORY
PRESUMPTION THAT WHERE A DRUG IS
PLACED INTO INTERSTATE COMMERCE,
THE INTERSTATE COMMERCE CLAUSE IS
AFFECTED

The Ninth Circuit’s decision conflicts with the language
of FDCA 21 U.S.C.A. §379a: The FDCA has statutorily
created a presumption of existence of jurisdiction and
a connection with interstate commerce. In any action
to enforce the requirements of this chapter respecting
a device, tobacco product, food, drug, or cosmetic the
connection with interstate commerce required for
jurisdiction in such action shall be presumed to exist.”
The Ninth Circuit decision held that Petitioners had
not established that California law touched at all upon
interstate commerce. No further discussion was engaged
in by the Ninth Circuit. Thus, the Ninth Circuit decision
is in clear conflict with federal statutory authority and
contradicts this federal statutory presumption. Thus,
a factual inquiry as to whether compounded drugs are

34
being restricted entirely from being placed into interstate
commerce is necessary. Here, Fusion IV is unable to
place any medications into interstate commerce although
granted that right by Congress. The Board, the district
court and the Ninth Circuit all argued cases relevant to
the ‘dormant commerce clause’.
XVI. FDCA EXPRESSLY PREEMPTS STATE LAW
IN THE ENFORCEMENT OF OUTSOURCING
FACILITIES WHICH WERE CREATED BY
THE FDCA
This Court stated in FDA v. Brown & Williamson
Tobacco Corp., that in constitutional analysis, the
FDCA must be considered as a whole. FDA v. Brown &
Williamson (2000) 529 U.S. 120. The FDCA prohibits
“enforcement” other than by the United States. 21
U.S.C. §271(a) and §337. FDCA has authority to enforce
the operation of outsourcing facilities and expressly
preempts state enforcement. Enforcement necessarily
includes ‘licensing’, discipline and regulation by California.
California law by its mere existence and language is in
conflict with the published instructions and notices of
discretionary enforcement decisions provided by the FDA.
The FDA warned states to not legislate in conflict with
federal law. Petitioners’ 9th Circuit Opening Briefs.
21 U.S.C. 353b defines an outsourcing facility as a
facility … that is engaged in the compounding of sterile
drugs; has elected to register as an outsourcing facility;
and complies with all of the requirements of section 503B.
Presently and since 2013, a majority of states have further
legislated a varying degree of requirements, almost all
requiring ‘licenses’ from other states, after the enactment

35
of 21 U.S.C. §353b in 2013 (the whole purpose of which was
to remove conflicting oversight from the states).
XVII. THE NINTH CIRCUIT IGNORED SUPREME
COURT PRECEDENT ENTIRELY AS TO
CALIFORNIA’S LICENSING REQUIREMENTS
AND INPUT LANGUAGE INTO THE STATUTE
WHICH WAS NOT THERE
State law is nullified to the extent that it actually
conflicts with federal law. Such a conflict arises when
compliance with both federal and state regulations is
a physical impossibility or when state law “stands as
an obstacle to the accomplishment and execution of
the full purposes and objectives of Congress,” Hines v.
Davidowitz (1941) 312 U.S. 52, 67. See generally Capital
Cities Cable, Inc. v. Crisp (1984) 467 U.S. 691, 698-699. “We
have held repeatedly that state laws can be pre-empted
by federal regulations as well as by federal statutes.” See
Capital Cities Cable, Inc. v. Crisp, supra, at 699; Fidelity
Federal Savings & Loan Assn. v. De la Cuesta, 458 U.S.
141, 153-154 (1982); United States v. Shimer, 367 U.S. 374,
381-383 (1961).
The Ninth Circuit ignored Supreme Court precedent
entirely and found ‘no conflict’ between the DQSA and
California law. The Ninth Circuit stated that in its view,
California’s licensing requirement did not conflict because
California ‘only’ required that an outsourcing facility
‘register’ with the federal government. 9th Cir. Opinion.
This is nonsensical and untrue and does not resolve the
issue. Bus & Prof. Code §4129.1 states: (a) An outsourcing
facility that is licensed with the [FDA] … and shall also
be licensed by the board as an outsourcing facility before

36
doing business within this state. The license shall be
renewed annually…; (b) An outsourcing facility shall
compound all sterile products and nonsterile products in
compliance with regulations issued by the board and with
federal current good manufacturing practices applicable
to outsourcing facilities; (c) An outsourcing facility
license shall not be issued or renewed until the location
is inspected by the board and found in compliance with
this article and regulations adopted by the board. (d) An
outsourcing facility license shall not be issued or renewed
until the board does all of the following ...”. Emphasis
added.
This Court will note that there is NO language
or consideration of “complementary state regulation”
language anywhere in 21 U.S.C. §353b. The word “state”
appears only in one line in the federal statute and that is
to authorize licensing fees if a state licensed pharmacy
is also present in the facility. Unlike 21 U.S.C. §353b
involving outsourcing facilities, the portion of this statute
which amended 353a involving state licensed pharmacies
DID have language regarding state involvement.
The FDCA must be considered as a whole in
determining congressional intent. The language present
in 21 U.S.C. §353a and §353a(a), as opposed to 21 U.S.C.
§353b, is instructive. Congress is explicit in §353a in
defining how state agencies will communicate with
the Secretary. The lack of similar language or even a
suggestion of state involvement in licensing/enforcement
of 21 U.S.C. §353b is instructive as to congressional intent.

37
XVIII. HEALTH AND WELFARE OF CITIZENS OF
THE UNITED STATES ARE AFFECTED BY
LEGISLATION RELATING TO OUTSOURCING
FACI LI T I E S W H ICH A RE T H E ON LY
V EHICLES TO PL ACE COMPOU N DED
DRUGS INTO INTERSTATE COMMERCE
The health and welfare of the citizens of the United
States is affected to a great extent by the confusion created
by disparate state regulation of federal outsourcing
facilities. Such disparate state regulation was the reason
Congress enacted the federal statute in 2013. Federal
outsourcing facilities are the only means of placing
compounded medications into interstate commerce in the
event of a “shortage” of FDA approved pharmaceutical
drugs, or for a clinical need for such compounds, and in
the event of a national emergency. The Ninth Circuit’s
decision is a truly dangerous decision to let lie.
XIX. CONCLUSION
Petitioners respectfully ask this Court to grant this
petition for writ of certiorari, due to the conflict of not only
California’s laws, but the laws of a majority of states which
unfortunately and tragically conflict with the purpose of
Congress’ enactment of 21 U.S.C. §353b.

38
Dated March 1, 2021
A l Mohajerian
Counsel of Record
A nn A nooshian
Mohajerian, APLC
1901 Avenue of the Stars, Suite 1100
Los Angeles, CA 90067
(310) 556-3800
al@mohajerian.com
Counsel for Petitioners

APPENDIX

1a
A
Appendix A —Appendix
memorandum
of the
united states court of appeals for the
ninth circuit, filed june 17, 2020
United States Court of Appeals
for the Ninth Circuit
No. 19-55791
FUSION IV PHARMACEUTICALS, INC.,
DBA Axia Pharmaceutical, a California
corporation; NAVID VAHEDI, Pharm D.,
Plaintiffs-Appellants,
v.
ANNE SODERGREN, in her Official
Capacity as the Interim Executive
Officer of the California State
Board of Pharmacy,
Defendant-Appellee,
and
CALIFORNIA STATE BOARD OF
PHARMACY; et al.,
Defendants.

2a
Appendix A
Appeal from the United States District Court
for the Central District of California.
D.C. No. 2:19-cv-01127-PA-FFM
Percy Anderson, District Judge, Presiding.
MEMORANDUM*
June 1, 2020,** Submitted, Pasadena, California
June 17, 2020, Filed
Before: RAWLINSON and N.R. SMITH, Circuit Judges,
and KORMAN,*** District Judge.
Fusion IV Pharmaceuticals, Inc. (“Fusion IV”)
appeals the district court’s grant of judgment on the
pleadings. Fusion IV argues that California’s regulatory
requirements: (1) are preempted by the Drug Quality
and Security Act (“DQSA” or “Act”), see Drug Quality
and Security Act, Pub. L. No. 113-54, 127 Stat. 587-640
(2013); or, alternatively, (2) violate the Commerce Clause’s
protections against state laws that unreasonably burden
Federal law. We have jurisdiction under 28 U.S.C. § 1291,
and we affirm.1****
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable Edward R. Korman, United States District
Judge for the Eastern District of New York, sitting by designation.
1. The motion of the National Association of Boards of
Pharmacy, the Arkansas State Board of Pharmacy, the Kansas

3a
Appendix A
1. The district court properly found there was no
preemption. McClellan v. I-Flow Corp., 776 F.3d 1035,
1039 (9th Cir. 2015).
A. There is no express preemption, because the
DQSA does not “explicitly manifest[] Congress’s intent to
displace state law” dealing with mass compounding. Valle
del Sol Inc. v. Whiting, 732 F.3d 1006, 1022 (9th Cir. 2013)
(quoting United States v. Alabama, 691 F.3d 1269, 1281
(11th Cir. 2012)). Thus, there can be no express preemption
by negative implication, because express preemption,
by its very definition, cannot be implied. See Gadda v.
Ashcroft, 377 F.3d 934, 944 (9th Cir. 2004).
B. There is also no field preemption, because “the
scheme of federal regulation” at issue here is not “so
pervasive as to make reasonable the inference that
Congress left no room for the States to supplement it.”
Gade v. Nat’l Solid Wastes Mgmt. Ass’n, 505 U.S. 88, 98,
112 S. Ct. 2374, 120 L. Ed. 2d 73 (1992) (internal quotation
marks omitted) (quoting Fidelity Fed. Sav. & Loan Ass’n.
v. de la Cuesta, 458 U.S. 141, 153, 102 S. Ct. 3014, 73 L.
Ed. 2d 664 (1982)). Because the DQSA clearly allows for
“complementary state regulation[s],” Fusion IV’s field
preemption claims fail. See Arizona v. United States, 567
U.S. 387, 401, 132 S. Ct. 2492, 183 L. Ed. 2d 351 (2012).

State Board of Pharmacy, the Louisiana Board of Pharmacy, the
Michigan Board of Pharmacy, the Mississippi Board of Pharmacy,
the North Dakota State Board of Pharmacy, the State of Ohio Board
of Pharmacy, and the Oklahoma State Board of Pharmacy for leave
to file a brief in support of Defendant—Appellee as amicus curiae,
see Dkt. 24, is also granted.

4a
Appendix A
C. There is no conflict preemption, because it is not
“impossible for a private party to comply with both state
and federal [compounding] requirements.” English v. Gen.
Elec. Co., 496 U.S. 72, 79, 110 S. Ct. 2270, 110 L. Ed. 2d 65
(1990). Importantly, it is possible to obtain authorization
under both the state and federal regulatory schemes,
because California does not necessarily require anything
more than registration with the FDA before a facility
can acquire a state license. See Cal. Bus. & Prof. Code §
4129.1(d)(2).
2. The district court properly found that the applicable
California licensing requirements do not violate dormant
Commerce Clause principles. Fusion IV failed to establish
that the requirements impose a “substantial burden” on
interstate commerce. See Nat’l Ass’n of Optometrists &
Opticians v. Harris, 682 F.3d 1144, 1148 (9th Cir. 2012).
AFFIRMED.

5a
Appendix STATES
B
APPENDIX B — UNITED
DISTRICT
COURT FOR THE CENTRAL DISTRICT OF
CALIFORNIA, FILED JUNE 21, 2019
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA
CV 19-1127 PA (FFMx)
FUSION IV PHARMACEUTICALS, INC., et al.,
v.
EXECUTIVE DIRECTOR
VIRGINIA HEROLD, et al.,
PERCY ANDERSON, UNITED STATES DISTRICT
JUDGE
June 21, 2019, Decided
June 21, 2019, Filed
CIVIL MINUTES - GENERAL
Proceedings: IN CHAMBERS - COURT ORDER
Before the Court are a Motion for Judgment on the
Pleadings Pursuant to FRCP 12(c) (Docket Nos. 47, 49)1
filed by plaintiffs Fusion IV Pharmaceuticals, Inc. d/b/a
Axia Pharmaceutical (“Fusion IV”) and Navid Vahedi
(“Vahedi”) (collectively, “Plaintiffs”) and a Motion for
1. Plaintiffs have filed two identical versions of their motion.

6a
Appendix B
Judgment on the Pleadings (Docket No. 52) filed by
defendant Anne Sodergren, Interim Executive Officer of
the California State Board of Pharmacy (“Defendant”).
Pursuant to Rule 78 of the Federal Rules of Civil
Procedure and Local Rule 7-15, the Court finds these
matters appropriate for decision without oral argument.
The hearing calendared for June 24, 2019 is vacated, and
the matters taken off calendar.
I.

Background

“Generally, the [Food, Drug, and Cosmetic Act
(‘FDCA’)] and parallel state statutes require approval
by the FDA and other state agencies before drugs can
be sold. Compounded drugs are exempted from these
requirements, inter alia, under both federal and state
laws when certain conditions are met.” Allergan USA,
Inc. v. Prescribers Choice, Inc., 364 F. Supp. 3d 1089,
1103-04 (C.D. Cal. 2019) (citations omitted). With this
action, Plaintiffs challenge the validity of certain state
laws concerning compounded drugs.
“In 2013, Congress passed the Drug Quality and
Security Act (‘DQSA’), amending FDCA Section 503A
and adding Section 503B.” Allergan USA, Inc. v.
Prescribers Choice, Inc., 364 F. Supp. 3d 1089, 1103-04
(C.D. Cal. 2019) (citing DQSA, 113 Pub. L. No. 54, 127
Stat. 587 (2013)). Section 503B of the FDCA allows a
drug-compounding facility to avoid certain regulatory
requirements for a drug, such as the new drug approval
process, if the drug is compounded in a facility that has
registered as an “outsourcing facility” with the Food

7a
Appendix B
and Drug Administration (“FDA”) and other conditions
are satisfied. Id. § 353b(a), (b). California law requires
that an outsourcing facility registered with the FDA
“be concurrently licensed with the [California Board
of Pharmacy (the ‘Board’)] . . . if it compounds sterile
medication or nonsterile medication for nonpatient-specific
distribution within or into California.” Cal. Bus. & Prof.
Code § 4129; see id. §§ 4129.1, .2. The state license must
be renewed annually, and the facility must undergo an
inspection by and provide certain information to the Board
in order to obtain or renew a license. Id. §§ 4129.1, .2.
According to the operative Third Amended Complaint
(“TAC”), Fusion IV is a federally registered outsourcing
facility. (Docket No. 40 at 1, 11-12, 25.) After Fusion IV
received its federal registration, Plaintiffs applied for
a California outsourcing facility license, but the Board
(improperly, in Plaintiffs’ view) denied their application.
(Id. at 1, 3, 26.) Plaintiffs contend that Congress intended
for outsourcing facilities to be subject only to federal
regulation; the California laws governing outsourcing
facilities conflict with federal law in various ways; and the
California laws impermissibly interfere with interstate
commerce. (See generally TAC.) Plaintiffs thus argue
that the state laws are preempted and also invalid under
the United States Constitution’s Commerce Clause. (Id.
at 2.) Plaintiffs seek declaratory relief including, among
other things, an order ruling the state outsourcing facility
laws invalid and holding that Plaintiffs are subject only to
federal regulation in their outsourcing-facility activities.
(Id. at 38-39.)

8a
Appendix B
Plaintiffs and Defendant have filed motions for
judgment on the pleadings. As in their TAC, Plaintiffs
argue that California’s outsourcing facility laws are
preempted by federal law under theories of express,
field, and implied preemption and also invalid under the
Commerce Clause. (See Pls.’ Mot.; Pls.’ Opp’n to Def.’s
Mot., Docket No. 58. 2 ) Defendant argues that the state
laws are valid. (See Def.’s Mot.; Def.’s Opp’n to Pls.’ Mot.,
Docket No. 55.)
II. Legal Standard
Under Federal Rule of Civil Procedure (“Rule”) 12(c),
“[a]fter the pleadings are closed—but early enough not
to delay trial—a party may move for judgment on the
pleadings.” In ruling on a motion for judgment on the
pleadings brought pursuant to Rule 12(c), “the allegations
of the non-moving party must be accepted as true, while
the allegations of the moving party which have been
2. Plaintiffs’ opposition to Defendant’s motion exceeds the
applicable page limit and was untimely. See L.R. 7-9; L.R. 11-6.
(See also Docket No. 22 at 5.) Defendant argues that the opposition
should be disregarded, Defendant’s motion should be granted or
the case dismissed, and Plaintiffs should be sanctioned for these
and other violations of the Local Rules. (Def.’s Reply at 1-3, Docket
No. 59.) Plaintiffs have filed motions to exceed the page limitation
and to have their opposition considered despite its untimeliness.
(Docket Nos. 60, 62, 63.) Plaintiffs’ arguments in their opposition
are essentially the same as those in their own motion, and the
Court ultimately concludes that Defendant is entitled to Judgment
in its favor even if Plaintiffs’ opposition is considered. Accordingly,
the Court considers Plaintiff’s opposition despite these procedural
deficiencies.

9a
Appendix B
denied are assumed to be false.” Hal Roach Studios,
Inc. v. Richard Feiner & Co., 896 F.2d 1542, 1550 (9th
Cir. 1990) (citing Doleman v. Meiji Mutual Life Ins. Co.,
727 F.2d 1480, 1482 (9th Cir. 1984); Austad v. United
States, 386 F.2d 147, 149 (9th Cir. 1967)). Rule 12(c) is
“functionally identical” to Rule 12(b)(6), and the same
standard “applies to motions brought under either rule.”
Cafasso v. Gen. Dynamics C4 Sys., 637 F.3d 1047, 1054
n.4 (9th Cir. 2011). Therefore, whether a motion is brought
under Rule 12(b)(6) or Rule 12(c), the pleadings must
satisfy the “plausibility standard,” in which the complaint
must “raise a reasonable expectation that discovery will
reveal evidence of [the alleged infraction].” Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 556, 127 S. Ct. 1955, 167 L.
Ed. 2d 929 (2007). For a complaint to meet this standard,
the “[f]actual allegations must be enough to raise a right
to relief above the speculative level.” Id. at 555 (citing 5
C. Wright & A. Miller, Federal Practice and Procedure
§1216, pp. 235-36 (3d ed. 2004) (“[T]he pleading must
contain something more . . . than . . . a statement of facts
that merely creates a suspicion [of] a legally cognizable
right of action”)); see also Daniel v. Cty. of Santa Barbara,
288 F.3d 375, 380 (9th Cir. 2002) (“All allegations of
material fact are taken as true and construed in the light
most favorable to the nonmoving party.” (quoting Burgert
v. Lokelani Bernice Pauahi Bishop Tr., 200 F.3d 661,
663 (9th Cir. 2000))). “[A] plaintiff’s obligation to provide
the grounds of his entitlement to relief requires more
than labels and conclusions, and a formulaic recitation of
the elements of a cause of action will not do.” Twombly,
550 U.S. at 555 (internal quotation marks omitted). In
construing the Twombly standard, the Supreme Court

10a
Appendix B
has advised that “a court considering a motion to dismiss
can choose to begin by identifying pleadings that, because
they are no more than conclusions, are not entitled to the
assumption of truth. While legal conclusions can provide
the framework of a complaint, they must be supported by
factual allegations. When there are well-pleaded factual
allegations, a court should assume their veracity and
then determine whether they plausibly give rise to an
entitlement to relief.” Ashcroft v. Iqbal, 556 U.S. 662, 679,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009).
“Judgment on the pleadings is proper when the moving
party clearly establishes on the face of the pleadings that
no material issue of fact remains to be resolved and that
it is entitled to judgment as a matter of law.” Hal Roach
Studios, 896 F.2d at 1550 (citing Doleman, 727 F.2d at
1482). Alternatively, the Court has discretion to grant
leave to amend or to dismiss causes of action rather than
grant judgment on a Rule 12(c) motion. See Lonberg v. City
of Riverside, 300 F. Supp. 2d 942, 945 (C.D. Cal. 2004);
Carmen v. S.F. Unified Sch. Dist., 982 F. Supp. 1396, 1401
(N.D. Cal. 1997).
III.

The Parties’ Requests for Judicial Notice

“In a motion for judgment on the pleadings, the Court
may consider information ‘contained in materials of which
the court may take judicial notice’ and documents attached
to the complaint.” Mays v. Wal-Mart Stores, Inc., 354 F.
Supp. 3d 1136, 1141 (C.D. Cal. 2019) (quoting Heliotrope
Gen., Inc. v. Ford Motor Co., 189 F.3d 971, 981 n.18 (9th
Cir. 1999); and citing United States v. Ritchie, 342 F.3d

11a
Appendix B
903, 908 (9th Cir. 2003))). Both sides have filed requests
for judicial notice (Docket Nos. 44, 53, 56), and neither
side has opposed to the others’ requests.
Among other things, Plaintiffs request that the
Court take judicial notice of the “fact” that Section 503B
of the FDCA “establishes a registration ‘authorization’
in order for outsourcing facilities to begin to conduct
business in compounding drugs to be placed into interstate
commerce.” (Docket No. 44 at 1.) The Court denies this
request because the purported fact is a legal conclusion
about the effect of a statute at issue in this case. See, e.g.,
United States v. Molen, No. 2:10-cv-02591 MCE KJN
PS, 2011 U.S. Dist. LEXIS 53995, 2011 WL 1810449, at
*6 (E.D. Cal. May 9, 2011) (“[T]here is typically no need
to request judicial notice of statutes and regulations
pursuant to Federal Rule of Evidence 201 . . . . Instead of
requesting ‘judicial notice’ of statutes and regulations they
believe support their arguments, [parties] should simply
include citations to the statutes and regulations within
the legal argument portion of their motions.”).
Plaintiffs also request that the Court take judicial
notice of the fact that in 2012, there was an “incident
involving adulterated compounded drugs which occurred
in Massachusetts, leading to the deaths of sixty-four
individuals and the illness of over 700 others, who
contracted fungal meningitis, as reflected in [material
on a webpage maintained by the United States Senate]
(and Congressional Record excerpts within Plaintiffs’
Complaint).” (Docket No. 44 at 2.) The Court grants this
request. See, e.g., Anderson v. Holder, 673 F.3d 1089, 1094

12a
Appendix B
n.1 (9th Cir. 2012); Hadley v. Kellogg Sales Co., 243 F.
Supp. 3d 1074, 1087 (N.D. Cal. 2017).
The remainder of the materials provided by the
parties are not relevant to the disposition of their motions.
The Court denies the parties’ requests as moot with
respect to those materials. See, e.g., Bryant v. Mickelsen,
551 F. App’x 348, 349 (9th Cir. 2014).
IV. Discussion
A.

Preemption

As a preliminary matter, a “presumption against
preemption applies generally, but is especially strong when
. . . ‘Congress has legislated in a field which the states have
traditionally occupied.’” Chinatown Neighborhood Ass’n
v. Harris, 794 F.3d 1136, 1141 (9th Cir. 2015) (quoting
McDaniel v. Wells Fargo Invs., LLC, 717 F.3d 668, 674 (9th
Cir. 2013); and citing Bayside Fish Flour Co. v. Gentry,
297 U.S. 422, 426, 56 S. Ct. 513, 80 L. Ed. 772 (1936)).
Plaintiffs suggest at various points in the TAC and their
briefing that “there is no ‘traditional state regulation’
which would create a presumption that a federal statute
does not supplant state law.” (TAC at 6-7, 37; see Pls.’
Mot. at 12; Pls.’ Opp’n to Def.’s Mot. at 11-12.) However,
as Defendant argues, drug compounding predates the
federal outsourcing facility laws and was regulated by
the states. (Def.’s Opp’n to Pls.’ Mot. at 2-3; Def.’s Reply
at 3.) See Stacey L. Worthy et al., The Compounding
Conundrum: How Insufficient Delineation of Regulatory
Responsibility Has Created a Need for State and Federal

13a
Appendix B
Drug Law Reform, 72 Food & Drug L.J. 506, 508 (2017)
(“While the regulation of new drugs falls under FDA’s
federal authority, the practice of pharmacy and medicine
has traditionally been under the states’ purview. Therefore,
given that compounded drugs are produced by pharmacies
or physicians, they have long fallen under state oversight.”
(footnotes omitted)); Nathan A. Brown & Eli Tomar, Could
State Regulations Be the Next Frontier for Preemption
Jurisprudence?: Drug Compounding as a Case Study, 71
Food & Drug L.J. 271, 272, 288, 295 (2016) (noting that
“states have long been actively engaged in compounding
oversight”). Additionally, regulation of drug compounding
is more broadly an issue of public health or safety, and
the Supreme Court has specifically noted a “presumption
that state or local regulation of matters related to health
and safety is not invalidated under the Supremacy
Clause.” Hillsborough County v. Automated Med. Labs.,
Inc., 471 U.S. 707, 715, 105 S. Ct. 2371, 85 L. Ed. 2d 714
(1985). Accordingly, the “California [outsourcing facility]
statute[s] cannot be set aside absent ‘clear evidence’ of a
conflict” with federal law. See Chinatown Neighborhood
Ass’n, 794 F.3d at 1141-42 (quoting Geier v. Am. Honda
Motor Co., 529 U.S. 861, 885, 120 S. Ct. 1913, 146 L. Ed.
2d 914 (2000); and citing McClellan v. I-Flow Corp., 776
F.3d 1035, 1039 (9th Cir. 2015)).
Plaintiffs also contend that California law explicitly
acknowledges federal preemption by providing that an
outsourcing facility’s state license is immediately canceled,
revoked, or suspended upon the FDA’s cancellation,
revocation, or suspension of its federal registration. (TAC
at 21-22; Pls.’ Mot. at 35-36; Pls.’ Opp’n to Def.’s Mot. at 33-

14a
Appendix B
34.) Under California law, “[i]f the [FDA] cancels, revokes,
or suspends an outsourcing facility’s registration for any
reason, any license issued pursuant to Section 4129.2
shall be immediately canceled, revoked, or suspended
by operation of law.” Cal. Bus. & Prof. Code § 4303.1. As
Defendant points out, “this section simply states that
FDA registration is a prerequisite to holding a state
outsourcing facility license.” (Def.’s Opp’n to Pls.’ Mot. at
15 n.2; see Def.’s Reply at 7.) See also Cal. Bus. & Prof.
Code § 4129.2(a). Contrary to Plaintiffs’ suggestion, the
California legislature’s decision to automatically revoke
a state license upon loss of a federal registration does
not mean that the state must grant a license if a federal
registration is issued.
1.

Express Preemption

“The Supremacy Clause provides a clear rule that
federal law ‘shall be the supreme Law of the Land; and the
Judges in every State shall be bound thereby, any Thing
in the Constitution or Laws of any state to the Contrary
notwithstanding.’ Under this principle, Congress has
the power to preempt state law. There is no doubt that
Congress may withdraw specified powers from the States
by enacting a statute containing an express preemption
provision.” Arizona v. United States, 567 U.S. 387, 398, 132
S. Ct. 2492, 183 L. Ed. 2d 351 (2012) (citations omitted).
Plaintiffs assert that Congress expressly preempted
state regulation of outsourcing facilities in Section 503B(a)
(11) and (d)(4)(A) of the FDCA as well as the DQSA’s
prohibition of state product-tracing requirements. (TAC

15a
Appendix B
at 9, 17, 27; see Pls.’ Mot. at 32, 36, 39; Pls.’ Opp’n to
Def.’s Mot. at 10-11, 20.) However, none of these, nor any
other provisions in the FDCA, expressly preempt state
regulation of outsourcing facilities.
Section 503B(a)(11) of the FDCA provides that a
drug is exempt from certain regulatory requirements
if, among other conditions, the “drug is compounded
in an outsourcing facility in which the compounding of
drugs occurs only in accordance with this section.” 21
U.S.C. § 353b(a)(11). This provision simply states that
the exemption only applies if the drug is compounded in
accordance with Section 503B’s requirements; it does not
state that other regulation is not possible.
Section 503B(d)(4)(A) defines “outsourcing facility”
to mean “a facility at one geographic location or address
that--(i) is engaged in the compounding of sterile drugs;
(ii) has elected to register as an outsourcing facility;
and (iii) complies with all of the requirements of this
section.” 21 U.S.C. § 353b(d)(4)(A). This provision merely
establishes what the term “outsourcing facility” means in
the context of the statute, and it reiterates that the federal
regulatory exemption only applies if an entity complies
with certain specific requirements.
Finally, the portion of the DQSA concerning producttracing that Plaintiffs cite provides that “[b]eginning on
November 27, 2013, no State or political subdivision of a
State may establish or continue in effect any requirements
for tracing products through the distribution system”
that are inconsistent with, stricter than, or in addition to

16a
Appendix B
certain specified federal laws and regulations. 21 U.S.C.
§ 360eee-4(a). However, the statute makes clear that
“[n]othing in this section shall be construed to preempt
State requirements related to the distribution of
prescription drugs if such requirements are not related
to product tracing as described in subsection (a) . . . .” Id.
§ 360eee-4(c). The state laws that Plaintiffs are challenging
are not “related to product tracing” and therefore are
explicitly excluded from the provision’s preemptive scope.
Furthermore, this provision is located in the Drug Supply
Chain Security Act, a separate title in the DQSA from the
Compounding Quality Act, which created Section 503B
of the FDCA. See DQSA. The existence of a provision
explicitly preempting some state regulation “impl[ies]
that Congress intentionally did not preempt state law
generally, or in respects other than those it addressed.”
Keams v. Tempe Tech. Inst., Inc., 39 F.3d 222, 225 (9th
Cir. 1994).
Plaintiffs also contend that the DQSA’s legislative
history demonstrates Congress’s intent to preempt state
regulation, including legislators’ remarks prior to passage
of the bill. (See TAC Ex. H, Docket No. 40-2 at 1-11.) For
example, shortly before the bill’s passage, one senator
stated that under the new law, “[s]terile compounding
facilities that do not want to comply with the patchwork of
State laws and requirements can choose instead to have
FDA regulate their compounding.” (TAC Ex. H, Docket
No. 40-2 at 3; see also id. at 10-11.) Another senator stated
that the DQSA “aims to address [the] regulatory gray area
[of mass compounding] by clarifying the responsibilities of
the FDA with regard to the oversight of mass compounded

17a
Appendix B
pharmaceuticals. . . . Under this bill, mass compounding
pharmacies can choose to register as outsourcing facilities
that would be subject to new FDA regulatory oversight
similar to that of other pharmaceutical manufacturers.”
(Id. at 5; see also id. at 10-11; TAC Ex. G., Docket No.
40-1 at 43-92 (Government Accountability Office report
discussing lack of clarity concerning regulatory authority
and this legislative history).) But the view of one or two
legislators is not sufficient to establish Congress’s intent.
See Chinatown Neighborhood Ass’n, 794 F.3d at 1144 n.7
(stating that “a lone statement in the legislative history is
not a ‘clear and manifest’ expression of Congress’s intent
to preempt”). Moreover, the legislative materials provided
by Plaintiffs show that Congress’s primary motivation in
enacting the DQSA was public safety in light of a recent
meningitis outbreak, not merely to establish a uniform
system of regulation or to increase the availability of
certain drug products as Plaintiffs contend. The senators’
remarks in particular suggest that Congress was acting
to fill a regulatory gap that had existed with respect to
mass compounders, and to clarify that the FDA would be
responsible for that regulation under the new law. On the
whole, it does not clearly establish that Congress intended
the FDA alone to have regulatory authority going forward.
Plaintiffs also allege that Congress’s intent to preempt
state law is confirmed by the FDA, which “has spoken and
advised states against legislation which conflicts with 21
U.S.C. § 353b.” (TAC at 8, 18-21; see Pls.’ Mot. at 25, 32-35;
Pls.’ Opp’n to Def.’s Mot. at 10, 20-25.) The Supreme Court
“has recognized that an agency regulation with the force
of law can pre-empt conflicting state requirements.” Wyeth

18a
Appendix B
v. Levine, 555 U.S. 555, 576, 129 S. Ct. 1187, 173 L. Ed. 2d
51 (2009) (citing Geier, 529 U.S. 861, 120 S. Ct. 1913, 146
L. Ed. 2d 914; Hillsborough County, 471 U.S. at 713). But
Plaintiffs have not identified any agency regulations and
instead provide only unpublished documents apparently
created for a meeting between FDA and state officials.
(TAC Ex. A, Docket No. 40-1 at 1-21; TAC Ex. B, Docket
No. 40-1 at 22-27.) See Wyeth, 555 U.S. at 576-78 (stating
that the “weight we accord the agency’s explanation of
state law’s impact on the federal scheme depends on its
thoroughness, consistency, and persuasiveness,” and
declining to afford deference to a statement concerning
preemption in the preamble to an FDA regulation).
Moreover, the materials provided do not show that the
FDA believed Congress to have preempted state law or
that FDA regulations would preempt state law. To the
contrary, the materials reflect the FDA’s understanding
that state licensure and regulation of outsourcing facilities
was possible, and even recommended, although the
FDA expressed general concerns about varying state
regulatory approaches and the possibility of different
state and federal standards. (See, e.g., TAC Ex. A, Docket
No. 40-1 at 16 (stating that the FDA “recommend[s] that
states create a licensure or registration category specific
to outsourcing facilities” and that “[c]ompliance with
federal law applicable to outsourcing facilities should be
a condition of state licensure or registration under this
category”).
Accordingly, Plaintiffs fail to establish that Congress
expressly preempted state regulation of outsourcing
facilities.

19a
Appendix B
2.

Field Preemption

“Under the doctrine of ‘field preemption,’ state law is
preempted if it regulates ‘conduct in a field that Congress,
acting within its proper authority, has determined must
be regulated by its exclusive governance.’” Chinatown
Neighborhood Ass’n, 794 F.3d at 1141 n.5 (citation omitted)
(quoting Arizona, 567 U.S. at 399). “The intent to displace
state law altogether can be inferred from a framework of
regulation ‘so pervasive . . . that Congress left no room for
the States to supplement it’ or where there is a ‘federal
interest . . . so dominant that the federal system will be
assumed to preclude enforcement of state laws on the same
subject.’” Arizona, 567 U.S. at 399 (quoting Rice v. Santa
Fe Elevator Corp., 331 U.S. 218, 230, 67 S. Ct. 1146, 91
L. Ed. 1447 (1947); and citing English v. Gen. Elec. Co.,
496 U.S. 72, 79, 110 S. Ct. 2270, 110 L. Ed. 2d 65 (1990)).
Plaintiffs allege that Congress enacted the DQSA “in
order to oversee and regulate the national distribution
of compounded drugs” and to create the category of
“outsourcing facilities,” which “would be regulated by the
FDA under very strict guidelines and oversight.” (TAC at
5-7, 10, 16-17; see Pls.’ Mot. at 36-40.) Plaintiffs also allege
that “the federal scheme in enacting 21 U.S.C. § 353b is
so pervasive as to leave no room for states to supplement
with further regulations” and that “the dominance of
the federal interest in compounding of sterile drugs to
be distributed in interstate commerce, is shown by the
enactment of the Drug Quality and Security Act after a
fatal incident of tainted compounded drugs.” (TAC at 10,
16-17, 31; see Pls.’ Mot. at 13-15, 25-26.) However, “[t]he

20a
Appendix B
mere existence of a detailed regulatory scheme does not
by itself imply preemption of state remedies.” Keams, 39
F.3d at 225-26 (citing English, 496 U.S. at 87). Nor does
the Court find that an intent to preempt the field must
be inferred due to a strong federal interest in the field.
See Hillsborough County, 471 U.S. at 719 (“Undoubtedly,
every subject that merits congressional legislation is, by
definition, a subject of national concern. That cannot mean,
however, that every federal statute ousts all related state
law. . . . [A]s we have stated, the regulation of health and
safety matters is primarily, and historically, a matter
of local concern.” (citing Rice, 331 U.S. at 230)). Indeed,
that the DQSA included a limited express preemption
provision elsewhere but not in the Compounding Quality
Act suggests that Congress did not intend to preempt
state regulation of outsourcing facilities. See Keams, 39
F.3d at 225-26.
Moreover, the statute actually contemplates some
concurrent state regulation. For example, Section 503B
of the FDCA provides that payment of the federal
registration fee “shall not relieve an outsourcing facility
that is licensed as a pharmacy in any State that requires
pharmacy licensing fees of its obligation to pay such
State fees.” 21 U.S.C. § 353b(d). Additionally, it requires
an outsourcing facility to be supervised by a licensed
pharmacist in order for the regulatory exemptions to
apply, id. § 353b(a), and pharmacist licensure is handled
by state boards of pharmacy. See Cal. Bus. & Prof. Code
§§ 4036, 4200(a); see also Ouellette v. Mills, 91 F. Supp.
3d 1, 9 (D. Me. 2015) (“Pharmacist licensure does indeed
implicate the traditionally local sphere of public health

21a
Appendix B
and safety. The [FDCA] does not regulate the licensure
of pharmacists; it instead leaves that area to individual
states.” (citing 21 U.S.C. §§ 360(g), 384(a)(2))). The DQSA
also directed “the Comptroller General of the United
States [to] submit to Congress a report on pharmacy
compounding and the adequacy of State and Federal
efforts to assure the safety of compounded drugs.” DQSA
§ 107(a). The report was required to include, among other
things, “a review of the State laws and policies governing
pharmacy compounding, including enforcement of State
laws and policies” and “an evaluation of the effectiveness
of the communication among States and between States
and the Food and Drug Administration regarding
compounding.” DQSA § 107(b)(2), (4). It thus does not
appear that Congress intended the DQSA to supplant the
states’ role in regulating compounded drugs generally or
outsourcing facilities specifically.
Plaintiffs again point to the DQSA’s legislative history
and the FDA’s statements as supporting a finding of field
preemption. (TAC at 28-32; see Pls.’ Mot. at 26-27, 3640; Pls.’ Opp’n to Def.’s Mot. at 19, 24.) However, for the
reasons already discussed, the legislative history does not
establish Congress’s intent to preempt state regulation,
and Plaintiffs’ submissions show that the FDA actually
supports state licensure and regulation of outsourcing
facilities.
The Court thus concludes that Congress did not
intend to preempt the field of regulation with respect to
compounding facilities.

22a
Appendix B
3. Conflict Preemption
“[A] federal statute has preemptive effect if it
conflicts with state law. This can occur when ‘compliance
with both federal and state regulations is a physical
impossibility,’ or when a state law ‘stands as an obstacle
to the accomplishment and execution of the full purposes
and objectives of Congress.’” Chinatown Neighborhood
Ass’n, 794 F.3d at 1141 (citation omitted) (quoting Fla.
Lime & Avocado Growers, Inc. v. Paul, 373 U.S. 132,
142-43, 83 S. Ct. 1210, 10 L. Ed. 2d 248 (1963); and then
Arizona, 567 U.S. at 399-400).
Plaintiffs allege that California’s outsourcing facility
laws and regulations conflict with federal law in a number of
ways, including by preventing Plaintiffs from compounding
bulk drug substances, and in particular ziconotide; by
not allowing certain FDA-approved methods of sterility
testing; by defining terms differently from federal law; by
requiring different “engineering controls”; by imposing
different invoicing requirements; and by having differing
training requirements for the Board’s inspectors. (TAC
at 2, 11-14, 16; Pls.’ Mot. at 21-23, 28-32; Pls.’ Opp’n to
Def.’s Mot. at 27-32.) However, Plaintiffs fail to identify
a state law or regulation actually conflicting with federal
law as to any of these subjects. California’s outsourcing
facility statutes provide that outsourcing facilities “shall
compound all sterile products and nonsterile products
in compliance with regulations issued by the [Board]
and with federal current good manufacturing practices
applicable to outsourcing facilities.” Cal. Bus. & Prof. Code
§ 4129.1(b); see id. § 4129.2(b). California law thus subjects

23a
Appendix B
outsourcing facilities to both federal and state standards,
but it otherwise does not address any of the alleged areas
of conflict that Plaintiffs cite, and the Board has not yet
implemented any regulations concerning compounding at
outsourcing facilities. See Cal. Bus. & Prof. Code §§ 4129
to 4129.9; Cal. Code Regs. tit. 16, arts. 4.5, 7. (See also
Def.’s Opp’n to Pls.’ Mot. at 9 n.2, 13.)
Plaintiffs also argue that state and federal laws
conflict because federal law requires Fusion IV to have
a licensed pharmacist overseeing its compounding
activities, but “California will not license Fusion IV
as an outsourcing facility” and “continues to discipline
Fusion IV as a ‘pharmacy.’” (TAC at 3, 11, 14; Pls.’ Mot.
at 21, 28-29; Pls.’ Opp’n to Def.’s Mot. at 17-18.) For the
regulatory exemptions under Section 503B of the FDCA
to apply, a drug must be “compounded by or under the
direct supervision of a licensed pharmacist in a facility
that elects to register as an outsourcing facility.” 21
U.S.C. § 353b(a). California law prohibits an outsourcing
facility from also being licensed as a sterile compounding
pharmacy and from performing the duties of a pharmacy.
Cal. Bus. & Prof. Code § 4129(b), (e). However, California
law does not prohibit an individual who is a licensed
pharmacist from supervising the compounding of a drug
at an outsourcing facility. That Plaintiffs are not able to
obtain a state outsourcing facility license is not evidence of
a conflict between state and federal laws but rather is the
result of circumstances particular to them. And although
Plaintiffs contend that the state’s denial of their license
was improper, those issues are not before the Court in
this action. (See, e.g., TAC at 1-2 (stating that the denial of

24a
Appendix B
Plaintiffs’ application “is not at issue herein — Plaintiffs
appealed and a hearing was held, and ensuing writ of
administrative mandamus filed — relating to the state
proceedings. This complaint is entirely based upon the
federal preemption issues/interstate commerce issues.”);
see also Docket Nos. 41, 42.)
Plaintiffs also argue that “federal law allows an
outsourcing facility to also have a state licensed
pharmacy on its premises. California law prohibits
this. While this does not make it impossible for an
outsourcing facility to ‘function’, it makes it impossible
for an outsourcing facility to choose to have a pharmacy
on its premises as expressly provided for under federal
law.” (TAC at 16; see id. at 19; Pls.’ Opp’n to Def.’s Mot. at
31.) Under Section 503B, “[a]n outsourcing facility is not
required to be a licensed pharmacy,” and it “may or may
not obtain prescriptions for identified individual patients.”
21 U.S.C. § 353b(d)(4)(B), (C). California law provides
that “[a] facility premises licensed with the board as a
sterile compounding pharmacy shall not be concurrently
licensed with the board as an outsourcing facility at the
same location” and an “outsourcing facility licensed by
the board shall not perform the duties of a pharmacy,
such as filling individual prescriptions for individual
patients.” Cal. Bus. & Prof. Code § 4129(b), (e). However,
“the possibility of proscription by [a state] of conduct
that federal law might permit is not sufficient to warrant
preemption.” Chevron U.S.A., Inc. v. Hammond, 726
F.2d 483, 498 (9th Cir. 1984) (quoting William Inglis &
Sons Baking Co. v. ITT Continental Baking Co., 668 F.2d
1014, 1049 (9th Cir.1981); and citing Fla. Lime & Avocado

25a
Appendix B
Growers, 373 U.S. 132, 83 S. Ct. 1210, 10 L. Ed. 2d 248).
As Plaintiffs acknowledge, it is not impossible to comply
with both the state and federal laws. Cf. N. Star Int’l v.
Ariz. Corp. Comm’n, 720 F.2d 578, 582-83 (9th Cir. 1983)
(“While the state standards are more stringent than the
federal standards, it is possible to comply with both. We
hold that there is no actual conflict between [the state law]
and the federal . . . laws.” (citing Fla. Lime & Avocado
Growers, 373 U.S. at 141-43)).
Plaintiffs also cite the possibility of var y ing
requirements among states as supporting a finding of
preemption. (TAC at 15.) But without further evidence
of Congress’s intent to preempt state law, whether and
to what extent California’s laws differ from other states’
is not relevant. See Keams, 39 F.3d at 226 (“Congress
could have avoided diversity by express preemption, had
it wished to do so, yet it did not.”). The Court also finds
that Congress’s primary motivation in enacting the DQSA
appears to have been public safety and to ensure that
mass compounding was subject to some regulation, not
necessarily to establish a uniform, nationwide standard
of regulation. See, e.g., Chamberlain v. Ford Motor Co.,
314 F. Supp. 2d 953, 962-63 (N.D. Cal. 2004) (finding no
preemption where primary congressional objective was
safety rather than uniform administration).
Ultimately, most of Plaintiffs’ arguments boil down
to a dispute over whether they must obtain a state
license at all. Plaintiffs contend that California’s statutes
and licensure requirement for outsourcing facilities
are preempted because they interfere with the use of

26a
Appendix B
Plaintiffs’ federal license. (TAC at 3, 4, 8-9, 11-14, 19, 21-22,
24, 26-28, 32-33; Pls.’ Mot. at 15-21; Pls.’ Opp’n to Def.’s
Mot. at 9-10, 11-18.) It is true that a “State may not enforce
licensing requirements which, though valid in the absence
of federal regulation, give the State’s licensing board a
virtual power of review over the federal determination
that a person or agency is qualified and entitled to perform
certain functions, or which impose upon the performance
of activity sanctioned by federal license additional
conditions not contemplated by Congress. No State law
can hinder or obstruct the free use of a license granted
under an act of Congress.” Sperry v. State of Florida, 373
U.S. 379, 385, 83 S. Ct. 1322, 10 L. Ed. 2d 428, 1963 Dec.
Comm’r Pat. 211 (1963) (footnotes and internal quotation
marks omitted). But the mere fact of concurrent licensure
does not establish preemption. See, e.g., UFO Chuting of
Haw., Inc. v. Smith, 508 F.3d 1189, 1192-93 (9th Cir. 2007)
(“No State may completely exclude federally licensed
commerce. However, a state may impose upon federal
licensees reasonable, nondiscriminatory conservation and
environmental protection measures otherwise within their
police power.” (alteration, citations, and internal quotation
marks omitted)); see also Brown & Tomar, supra, at 295
(“It is unlikely that Congress specifically intended to
prohibit states from licensing outsourcing facilities.”).
Moreover, as Defendant argues, the wording of the
DQSA suggests that “registration as an outsourcing
facility with the FDA is voluntary.” (Def.’s Opp’n to Pls.’
Mot. at 2-3 (emphasis omitted) (citing 21 U.S.C. § 353b(a)).)
See also 21 U.S.C. § 353b(d)(4)(A)(ii) (defining “outsourcing
facility” as a facility that, among other things, “has elected

27a
Appendix B
to register as an outsourcing facility” (emphasis added)).
Registration itself does not bestow any benefits but is one
prerequisite for a facility’s avoidance of certain regulatory
requirements for a particular drug. See id. § 353b(a), (b);
Worthy et al., supra, at 524 (“Under the FDCA, registering
with FDA is voluntary. Only those compounders that wish
to be classified as outsourcing facilities under section
503B [of the FDCA] must do so.”); Brown & Tomar,
supra, at 296 (“[I]t is not clear that registration with
FDA under section 503B constitutes a ‘license’ to engage
in outsourcing beyond the scope of practice permitted
under state law. The statutory language could be read to
suggest only that compliance with section 503B provides a
license, or exemption, from more onerous requirements of
federal law, such as premarket approval for new drugs.”);
see also Wisc. Pub. Intervenor v. Mortier, 501 U.S. 597,
613-14, 111 S. Ct. 2476, 115 L. Ed. 2d 532 (1991) (“FIFRA
nowhere seeks to establish an affirmative permit scheme
for the actual use of pesticides. It certainly does not
equate registration and labeling requirements with a
general approval to apply pesticides throughout the Nation
without regard to regional and local factors like climate,
population, geography, and water supply. Whatever else
FIFRA may supplant, it does not occupy the field of
pesticide regulation in general or the area of local use
permitting in particular.”). A lack of a registration does
not prevent a facility from compounding drugs; it simply
subjects them to other regulations. (TAC Ex. B, Docket
No. 40-1 at 23 (“Compounders in the United States that
have not registered with FDA as outsourcing facilities
may produce drugs that are eligible for the exemptions
under section 503A of the [FDCA].”).)

28a
Appendix B
Plaintiffs thus fail to establish that California’s
outsourcing facility laws conflict with federal law or
present an obstacle to federal objectives.
B. The Commerce Clause
“The Commerce Clause grants Congress the power
‘[t]o regulate Commerce with foreign Nations, and among
the several States, and with the Indian tribes.’ Despite its
textual focus solely on congressional power, the Clause also
has long been understood to have a negative aspect that
denies the States the power unjustifiably to discriminate
against or burden the interstate f low of articles of
commerce. This so-called ‘dormant’ Commerce Clause is
driven by concern about economic protectionism — that is,
regulatory measures designed to benefit in-state economic
interests by burdening out-of-state competitors.” Am.
Fuel & Petrochemical Mfrs. v. O’Keeffe, 903 F.3d 903,
910 (9th Cir. 2018) (citations and some internal quotation
marks omitted).
“The Supreme Court has adopted a two-tiered
approach to analyzing state economic regulation
under the Commerce Clause. If a state statute
directly regulates or discriminates against
interstate commerce, or its effect is to favor
in-state economic interests over out-of-state
interests, it is struck down without further
inquiry. When, however, a state statute has
only indirect effects on interstate commerce
and regulates evenhandedly, it violates the
Commerce Clause only if the burdens of the

29a
Appendix B
statute so outweigh the putative benefits as to
make the statute unreasonable or irrational.”
Chinatown Neighborhood Ass’n, 794 F.3d
at 1145 (alterations, citations, and internal
quotation marks omitted); see O’Keeffe, 903
F.3d at 910.
“[A] statute that treats all private companies exactly
the same does not discriminate against interstate
commerce.” Ass’n des Eleveurs de Canards et d’Oies
du Quebec v. Harris, 729 F.3d 937, 947 (9th Cir. 2013)
(alteration and internal quotation marks omitted) (quoting
United Haulers Ass’n, Inc. v. Oneida-Herkimer Solid
Waste Mgmt. Auth., 550 U.S. 330, 342, 127 S. Ct. 1786,
167 L. Ed. 2d 655 (2007)). California’s outsourcing facility
laws subject both instate and out-of-state outsourcing
facilities to state licensure and to other requirements
that are virtually the same, an a facility must only obtain
a license “if it compounds sterile medication or nonsterile
medication for nonpatient-specific distribution within or
into California.” Cal. Bus. & Prof. Code § 4129(a); see
id. §§ 4129.1, .2. The laws are facially neutral and do not
impermissibly seek to regulate interstate or out-of-state
commerce. See, e.g., Pharm. Research & Mfrs. of Am. v.
County of Alameida, 768 F.3d 1037, 1042 (9th Cir. 2014)
(“The Ordinance, both on its face and in effect, applies
to all manufacturers that make their drugs available in
Alameda County—without respect to the geographic
location of the manufacturer. . . . In other words, the
Ordinance does not discriminate . . . .”); O’Keeffe, 903
F.3d at 916-17 (rejecting argument that state regulation
impermissibly regulated conduct wholly outside of the

30a
Appendix B
state’s borders because the regulation “expressly applies
only to fuels sold in, imported to, or exported from
Oregon”).
Plaintiffs primarily contend that having to obtain a
state license is an impediment to interstate commerce.
(TAC at 33-34; see Pls.’ Mot. at 40-42; Pls.’ Opp’n to
Def.’s Mot. at 25.) But the state’s license requirement,
without more, does not violate the dormant Commerce
Clause. See, e.g., Huron Portland Cement Co. v. City of
Detroit, 362 U.S. 440, 447, 80 S. Ct. 813, 4 L. Ed. 2d 852
(1960) (“The mere possession of a federal license . . . does
not immunize a ship from the operation of the normal
incidents of local police power, not constituting a direct
regulation of commerce.”); Sixth Angel Shepherd Rescue
Inc. v. Pa. SPCA, No. CIV.A. 10-3101, 2011 U.S. Dist.
LEXIS 15438, 2011 WL 605697, at *6 (E.D. Pa. Feb. 15,
2011) (“[R]equiring requiring a license to do business in
a state is generally not an undue burden on interstate
commerce.” (citing Quik Payday, Inc. v. Stork, 549 F.3d
1302, 1312-13 (10th Cir. 2008))). Nor does Plaintiffs’
personal inability to obtain a state license establish an
undue burden on interstate commerce. See Quik Payday,
549 F.3d at 1312 (“[W]e turn to Quik Payday’s argument
based on the specifics of the KUCCC. It contends that
subjecting it to regulation by multiple states will in fact
create inconsistency that would unduly burden interstate
commerce. . . . Quik Payday is not being penalized by
Kansas for the way it renews loans, or even for the interest
rate it charges. Its misconduct was a simple failure to
get a Kansas license.”); see also O’Keeffe, 903 F.3d at 914
(“The Commerce Clause ‘protects the interstate market,

31a
Appendix B
not particular interstate firms.’” (quoting Exxon Corp. v.
Governor of Maryland, 437 U.S. 117, 127, 98 S. Ct. 2207,
57 L. Ed. 2d 91 (1978))).
Plaintiffs also refer to varying regulations among
states. (TAC at 15, 34-36; Pls.’ Mot. at 41-43; Pls.’ Opp’n
to Def.’s Mot. at 25-27, 33.) But such concerns are only
relevant when one state attempts to regulate conduct in
other states. See Healy v. Beer Inst., Inc., 491 U.S. 324,
336-37, 109 S. Ct. 2491, 105 L. Ed. 2d 275 (1989); Rocky
Mountain Farmers Union v. Corey, 730 F.3d 1070, 1101
(9th Cir. 2013). California’s outsourcing facility laws
permissibly regulate only those facilities producing
medications for distribution into or within California.
See O’Keeffe, 903 F.3d at 917; see also Chinatown
Neighborhood Ass’n, 794 F.3d at 1145-46.
Furthermore, Defendants contend, and Plaintiffs
concede, that California’s outsourcing facility laws are
motivated by a desire to protect public safety. (See Def.’s
Mot. at 16, 20; Def.’s Opp’n to Pls.’ Mot. at 16-17; Pls.’
Mot. at 3, 14; Pls.’ Opp’n to Def.’s Mot. at 7.) Because
this is a “legitimate matter[] of local concern” and it
implicates an area in which state and federal cooperation
is contemplated, “[t]here is . . . no significant interference
with interstate commerce.” See Chinatown Neighborhood
Ass’n, 794 F.3d at 1147; see also Pharm. Research & Mfrs.,
768 F.3d at 1042 (noting that “regulations that touch upon
safety . . . are those that the [Supreme] Court has been
most reluctant to invalidate. Indeed, if safety justifications
are not illusory, the Court will not second-guess legislative
judgment about their importance in comparison with

32a
Appendix B
related burdens on interstate commerce” (quoting Kassel
v. Consol. Freightways Corp. of Del., 450 U.S. 662, 670,
101 S. Ct. 1309, 67 L. Ed. 2d 580 (1981))).
Accordingly, Plaintiffs fail to establish that California’s
outsourcing facility laws are invalid under the Commerce
Clause.
CONCLUSION
Plaintiffs fail to demonstrate that California’s
outsourcing facility laws are preempted by federal law or
that they are invalid under the Commerce Clause. For the
foregoing reasons, Plaintiffs’ motions to exceed the page
limitation for their opposition brief and to have that brief
considered despite its untimeliness (Docket Nos. 60, 62,
63) are granted; Plaintiffs’ Motion for Judgment on the
Pleadings Pursuant to FRCP 12(c) (Docket Nos. 47, 49)
is denied; and Defendant’s Motion for Judgment on the
Pleadings (Docket No. 52) is granted. The Court finds
that amendment of Plaintiffs’ claims would be futile and
therefore dismisses the TAC without leave to amend. The
Court will enter a Judgment consistent with this Order.
IT IS SO ORDERED.

33a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT, FILED JULY 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
FILED
JULY 29, 2020
FUSION IV PHARMACEUTICALS, INC., DBA
AXIA PHARMACEUTICAL, A CALIFORNIA
CORPORATION; NAVID VAHEDI, PHARM D.,
Plaintiffs-Appellants,
v.
ANNE SODERGREN, IN HER OFFICIAL
CAPACITY AS THE INTERIM EXECUTIVE
OFFICER OF THE CALIFORNIA STATE BOARD
OF PHARMACY,
Defendant-Appellee,
and
CALIFORNIA STATE BOARD OF PHARMACY;
BOARD OF PHARMACY; VIRGINIA HEROLD,
EXECUTIVE DIRECTOR, THE CALIFORNIA
STATE BOARD OF PHARMACY,
Defendants.

34a
Appendix C
No. 19-55791
D.C. No. 2:19-cv-01127-PA-FFM
Central District of California, Los Angeles
ORDER
Before: RAWLINSON and N.R. SMITH, Circuit Judges,
and KORMAN,* District Judge.
Judge Rawlinson has voted to deny the petition for
rehearing en banc, and Judge N.R. Smith and Judge
Korman have so recommended.
The full court was advised of the petition for rehearing
en banc and no judge has requested a vote on whether to
rehear the matter en banc. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED.

* The Honorable Edward R. Korman, United States District
Judge for the Eastern District of New York, sitting by designation.

35a
D
APPENDIX D —Appendix
CONSTITUTIONAL
AND
STATUTORY PROVISIONS INVOLVED

U.S. Constitution Article I
Section 8.
The Congress shall have power
To regulate commerce with foreign nations, and among
the several states, and with the Indian tribes;
U.S. Constitution Article VI
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all treaties
made, or which shall be made, under the authority of the
United States, shall be the supreme law of the land; and
the judges in every state shall be bound thereby, anything
in the Constitution or laws of any State to the contrary
notwithstanding.
§ 336. Report of minor violations
Nothing in this chapter shall be construed as
requiring the Secretary to report for prosecution, or for
the institution of libel or injunction proceedings, minor
violations of this chapter whenever he believes that the
public interest will be adequately served by a suitable
written notice or warning.

36a
Appendix D
§ 337. Proceedings in name of United States; provision
as to subpoenas
(a) Except as provided in subsection (b) of this section,
all such proceedings for the enforcement, or to restrain
violations, of this chapter shall be by and in the name of the
United States. Subpoenas for witnesses who are required to
attend a court of the United States, in any district, may run
into any other district in any proceeding under this section.
§ 353a. Pharmacy compounding
(a) In general
Sections 351(a)(2)(B), 352(f)(1), and 355 of this title
shall not apply to a drug product if the drug product is
compounded for an identified individual patient based on
the unsolicited receipt of a valid prescription order or a
notation, approved by the prescribing practitioner, on the
prescription order that a compounded product is necessary
for the identified patient, if the drug product meets the
requirements of this section, and if the compounding—
(1) is by—
(A) a licensed pharmacist in a State licensed
pharmacy or a Federal facility, or
(B) a licensed physician,
on the prescription order for such individual patient made
by a licensed physician or other licensed practitioner
authorized by State law to prescribe drugs; or

37a
Appendix D
(2)(A) is by a licensed pharmacist or
licensed physician in limited quantities before
the receipt of a valid prescription order for such
individual patient; and
(B) is based on a history of the licensed
pharmacist or licensed physician receiving
valid prescription orders for the compounding
of the drug product, which orders have
been generated solely within an established
relationship between—
(i) the licensed pharmacist or
licensed physician; and
(ii)(I) such individual patient for
whom the prescription order will be
provided; or
(II) the physician or other licensed
practitioner who w ill w rite such
prescription order.
(b) Compounded drug
(1) Licensed pharmacist and licensed physician
A drug product may be compounded under
subsection (a) of this section if the licensed
pharmacist or licensed physician—
(A) compounds the drug product
using bulk dr ug substances, as

38a
Appendix D
defined in regulations of the Secretary
published at section 2 07. 3(a)(4)
of title 21 of the Code of Federal
Regulations—
(i) that—
(I) comply w ith the
standards of an applicable
United States Pharmacopoeia
o r Na t i o n a l Fo r mu l a r y
monograph, if a monograph
exists, and the United States
Pharmacopoeia chapter on
pharmacy compounding;
(II) if such a monograph does
not exist, are drug substances
that are components of drugs
approved by the Secretary; or
(III) if such a monograph
does not exist and the drug
substance is not a component
of a drug approved by the
Secretary, that appear on a list
developed by the Secretary
through regulations issued
by t he S ec r et a r y u nder
subsection (d) of this section;

39a
Appendix D
(ii) that are manufactured
by an establishment that is
registered under section 360
of this title (including a foreign
establishment that is registered
under section 360(i) of this title);
and
(iii) that are accompanied by
valid certificates of analysis for
each bulk drug substance;
(B) compounds the drug product
using ingredients (other than bulk
drug substances) that comply with
t he st a nda rds of a n appl icable
United States Pharmacopoeia or
National Formulary monograph, if
a monograph exists, and the United
States Pharmacopoeia chapter on
pharmacy compounding;
(C) does not compound a drug
product t hat appea r s on a l ist
published by the Secretary in the
Federal Register of drug products
that have been withdrawn or removed
from the market because such drug
products or components of such drug
products have been found to be unsafe
or not effective; and

40a
Appendix D
(D) does not compound regularly
or in inordinate amounts (as defined
by the Secretary) any drug products
that a re essentially copies of a
commercially available drug product.
(2) Definition
For purposes of paragraph (1)(D), the term ‘‘essentially
a copy of a commercially available drug product’’ does not
include a drug product in which there is a change, made
for an identified individual patient, which produces for
that patient a significant difference, as determined by the
prescribing practitioner, between the compounded drug
and the comparable commercially available drug product.
(3) Drug product
A drug product may be compounded under subsection
(a) only if—
(A) such drug product is not a drug product
identified by the Secretary by regulation as
a drug product that presents demonstrable
difficulties for compounding that reasonably
demonstrate an adverse effect on the safety or
effectiveness of that drug product; and
(B) such drug product is compounded in a
State—
(i) t h at h a s ent e r e d i nt o a
memorandum of understanding with

41a
Appendix D
the Secretary which addresses the
distribution of inordinate amounts of
compounded drug products interstate
a n d p r o v i d e s fo r a p p r o p r i a t e
investigation by a State agency of
complaints relating to compounded
drug products distributed outside
such State; or
(ii) that has not entered into
the memorandum of understanding
described in clause (i) and the licensed
pharmacist, licensed pharmacy, or
licensed physician distributes (or
causes to be distributed) compounded
drug products out of the State in which
they are compounded in quantities
that do not exceed 5 percent of the
total prescription orders dispensed
or distributed by such pharmacy or
physician.
The Secretary shall, in consultation with the ational
Association of Boards of Pharmacy, develop a standard
memorandum of understanding or use by the States in
complying with subparagraph (B)(i).
(c) Advertising and promotion
A drug may be compounded under subsection (a) of
this section only if the pharmacy, licensed pharmacist,
or licensed physician does not advertise or promote the

42a
Appendix D
compounding of any particular drug, class of drug, or type
of drug. The pharmacy, licensed pharmacist, or licensed
physician may advertise and promote the compounding
service provided by the licensed pharmacist or licensed
physician.
(d) Regulations
(1) In general
The Secretary shall issue regulations
to implement this section. Before issuing
regulations to implement subsections (b)(1)(A)
(i)(III), (b)(1)(C), or (b)(3)(A) of this section,
the Secretary shall convene and consult an
advisory committee on compounding unless the
Secretary determines that the issuance of such
regulations before consultation is necessary
to protect the public health. The advisory
committee shall include representatives from
the National Association of Boards of Pharmacy,
the United States Pharmacopoeia, pharmacy,
physician, and consumer organizations, and
other experts selected by the Secretary.
(2) Limiting compounding
The Secretary, in consultation with the
United States Pharmacopoeia Convention,
Incorporated, shall promulgate regulations
identifying drug substances that may be used
in compounding under subsection (b)(1)(A)(i)

43a
Appendix D
(III) of this section for which a monograph
does not exist or which are not components of
drug products approved by the Secretary. The
Secretary shall include in the regulation the
criteria for such substances, which shall include
historical use, reports in peer reviewed medical
literature, or other criteria the Secretary may
identify.
(e) Application
This section shall not apply to—
(1) c omp ou nde d p o s it r on e m i s s ion
tomography drugs as defined in section 321(ii)
of this title; or
(2) radiopharmaceuticals.
(f) ‘‘Compounding’’ defined
As used in this section, the term ‘‘compounding’’ does
not include mixing, reconstituting, or other such acts that
are performed in accordance with directions contained in
approved labeling provided by the product’s manufacturer
and other manufacturer directions consistent with that
labeling.

44a
Appendix D
21 U.S. Code § 353b - Outsourcing facilities
(a) In general.
Sections 502(f)(1), 505, and 582 [21 USCS
§§ 352(f)(1), 355, and 360eee-1] shall not apply
to a drug compounded by or under the direct
supervision of a licensed pharmacist in a facility
that elects to register as an outsourcing facility
if each of the following conditions is met:
(1) Registration and reporting.
The drug is compounded in an outsourcing
faci l ity that is i n compl ia nce w ith the
requirements of subsection (b).
(2) Bulk drug substances.
The drug is compounded in an outsourcing
facility that does not compound using bulk drug
substances (as defined in section 207.3(a)(4) of
title 21, Code of Federal Regulations (or any
successor regulation)), unless—
(A)
(i) the bulk drug substance
appears on a list established by
the Secretary identifying bulk
drug substances for which there
is a clinical need, by—

45a
Appendix D
(I) publishing a notice in the
Federal Register proposing
bulk drug substances to
be i ncluded on the l ist ,
including the rationale for
such proposal;
(II) providing a period of not
less than 60 calendar days
for comment on the notice;
and
(III) publishing a notice
in the Federal Reg ister
d e s i g n a t i n g bu l k d r u g
substances for inclusion on
the list; or
(ii) the drug compounded from
such bu l k d r ug subst a nce
appears on the drug shortage
list in effect under section 506E
[21 USCS § 356e] at the time of
compounding, distribution, and
dispensing;
(B) if an applicable monograph exists
under the United States Pharmacopeia,
the National Formulary, or another
c o mp e n d i u m or p h a r m a c op e i a
recognized by the Secretary for
purposes of this paragraph, the bulk

46a
Appendix D
drug substances each comply with the
monograph;
(C) the bulk drug substances are each
manufactured by an establishment
that is registered under section 510
[21 USCS § 360] (including a foreign
establishment that is registered under
section 510(i)) [21 USCS § 360(i)]; and
(D) the bulk drug substances are each
accompanied by a valid certificate of
analysis.
(3) I ngr edi en t s (o t h er
substances)

t h a n bu lk drug

If any ingredients (other than bulk drug
substances) are used in compounding the drug,
such ingredients comply with the standards
of the applicable United States Pharmacopeia
or National Formulary monograph, if such
monograph exists, or of another compendium
or pharmacopeia recognized by the Secretary
for purposes of this paragraph if any.
(4) D rugs

withdrawn or removed because

unsafe or not effective.

The drug does not appear on a list published
by the Secretary of drugs that have been
withdrawn or removed from the market because
such drugs or components of such drugs have

47a
Appendix D
been found to be unsafe or not effective.
(5) Essentially a copy of an approved drug.
The drug is not essentially a copy of one or more
approved drugs.
(6) D r u g s

presen ting

demonstr a ble

difficulties for compounding.

The drug—
(A) is not identified (directly or as
part of a category of drugs) on a list
published by the Secretary, through
the process described in subsection
(c), of drugs or categories of drugs
that present demonstrable difficulties
for compounding that are reasonably
likely to lead to an adverse effect
on the safety or effectiveness of the
drug or category of drugs, taking
into account the risks and benefits to
patients; or
(B) is compounded in accordance with
all applicable conditions identified on
the list described in subparagraph (A)
as conditions that are necessary to
prevent the drug or category of drugs
from presenting the demonstrable
difficulties described in subparagraph
(A).

48a
Appendix D
(7) Elements to assure safe use.
In the case of a drug that is compounded from
a drug that is the subject of a risk evaluation
and mitigation strategy approved with elements
to assure safe use pursuant to section 5051 [21 USCS § 355-1], or from a bulk drug
substance that is a component of such drug,
the outsourcing facility demonstrates to the
Secretary prior to beginning compounding that
such facility will utilize controls comparable to
the controls applicable under the relevant risk
evaluation and mitigation strategy.
(8) Prohibition on wholesaling.
The drug will not be sold or transferred by an
entity other than the outsourcing facility that
compounded such drug. This paragraph does
not prohibit administration of a drug in a health
care setting or dispensing a drug pursuant to
a prescription executed in accordance with
section 503(b)(1) [21 USCS § 353(b)(1)].
(9) Fees.
The drug is compounded in an outsourcing
facility that has paid all fees owed by such
facility pursuant to section 744K [21 USCS
§ 379j-62].

49a
Appendix D
(10) Labeling of drugs.
(A) Label.
The label of the drug includes—
(i) the statement “This is a
c o m p o u n d e d d r u g.” o r a
reasonable comparable
a lt e r n at i ve st at ement (a s
specified by the Secretary) that
prominently identifies the drug
as a compounded drug;
(ii) the name, address, and
phone number of the applicable
outsourcing facility; and
(iii) with respect to the drug—
(I) the lot or batch number;
(II) the established name of
the drug;
(III) the dosage form and
strength;
( I V ) t h e s t a t e m e nt o f
qu a nt it y or volu me , a s
appropriate;

50a
Appendix D
(V) the date that the drug
was compounded;
(VI) the expiration date;
(VII) storage and handling
instructions;
(VIII) the National Drug
Code number, if available;
(IX) the statement “Not for
resale”, and, if the drug is
dispensed or distributed
other than pursuant to a
prescription for an individual
i d e nt i f i e d p a t i e nt , t h e
statement “Office Use Only”;
and
(X) subject to subparagraph
(B)(i), a list of active and
inactive ing redients,
identified by established
n a me a nd t he qu a nt it y
or propor tion of each
ingredient.
(B) Container.
The container from which the individual
units of the drug are removed for
dispensing or for administration (such

51a
Appendix D
as a plastic bag containing individual
product syringes) shall include—
(i) the information described
under subparagraph (A)(iii)(X),
if there is not space on the label
for such information;
(ii) the following information
to facilitate adverse event
r e p o r t i n g : w w w. f d a . g o v/
medwatch and 1-800-FDA-1088
(or any successor Internet Web
site or phone number); and
(iii) directions for use, including,
as appropriate, dosage and
administration.
(C) A dditional information.
The label and labeling of the drug
shall include any other information as
determined necessary and specified
in regulations promulgated by the
Secretary.
(11) Outsourcing facility requirement.
The drug is compounded in an outsourcing
facility in which the compounding of drugs
occurs only in accordance with this section.

52a
Appendix D
(b) R egistration

of outsourcing facilities a nd

reporting of drugs .

(1) Registration of outsourcing facilities.
(A) A nnual registration.
Upon electing and in order
t o become a n out sou rci ng
facility, and during the period
beginning on October 1 and
ending on December 31 of each
year thereafter, a facility—
(i) sha ll reg ist er w ith the
Secretary its name, place of
business, and unique facility
identifier (which shall conform to
the requirements for the unique
facility identifier established
under section 510 [21 USCS
§ 360]), and a point of contact
email address; and
(ii) shall indicate whether the
outsourcing facility intends to
compound a drug that appears
on the list in effect under section
506E [21 USCS § 356e] during
the subsequent calendar year.

53a
Appendix D
(B) Availability of registration for
inspection; list.
(i) Registrations.
T he Secret a r y sha l l ma ke
available for inspection, to
any person so requesting, any
registration filed pursuant to
this paragraph.
(ii) List.
T he Secret a r y sha l l ma ke
available on the public Internet
Web site of the Food and Drug
Administration a list of the
name of each facility registered
under this subsection as an
outsourcing facility, the State
in which each such facility is
located, whether the facility
compounds from bulk drug
substances, and whether any
such compounding from bulk
drug substances is for sterile or
nonsterile drugs.

54a
Appendix D
(2) Drug reporting by outsourcing facilities.
(A) In general.
Upon initially registering as
an outsourcing facility, once
during the month of June of
each year, and once during
the month of December of
each year, each outsourcing
facility that registers with the
Secretary under paragraph (1)
shall submit to the Secretary a
report—
(i) ident i f y i n g t he d r u g s
compounded by such outsourcing
facility during the previous
6-month period; and
(ii) with respect to each drug
identif ied under clause (i),
providing the active ingredient,
t he sou r c e of such a c t i ve
ingredient, the National Drug
Code number of the source
drug or bulk active ingredient,
if available, the strength of
the active ingredient per unit,
the dosage form and route of
administration, the package
descr iption, the number of

55a
Appendix D
individual units produced, and
the National Drug Code number
of the final product, if assigned.
(B) Form.
Each report under subparagraph
(A) shall be prepared in such form
and manner as the Secretary may
prescribe by regulation or guidance.
(C) Confidentiality.
R ep or t s subm it t e d u nde r t h i s
paragraph shall be exempt from
inspection under paragraph (1)(B)(i),
unless the Secretary finds that such
an exemption would be inconsistent
with the protection of the public
health.
(3) Electronic registration and reporting.
Registrations and drug reporting under
this subsection (including the submission of
updated information) shall be submitted to
the Secretary by electronic means unless the
Secretary grants a request for waiver of such
requirement because use of electronic means is
not reasonable for the person requesting waiver.

56a
Appendix D
(4) Risk-based inspection frequency.
(A) In general.
Outsourcing facilities—
(i) shall be subject to inspection
pursuant to section 704 [21
USCS § 374]; and
(ii) shall not be eligible for the
exemption under section 704(a)
(2)(A) [21 USCS § 374(a)(2)(A)].
(B) Risk-based schedule.
The Secretary, acting through one
or more officers or employees duly
designated by the Secretary, shall
inspect outsourcing facilities in
accordance with a risk-based schedule
established by the Secretary.
(C) Risk factors.
In establishing the risk-based
schedule, the Secretary shall
inspect outsourcing facilities
according to the known safety
r i sk s of such out sou r c i ng
facilities, which shall be based
on the following factors:

57a
Appendix D
(i) The compliance history of the
outsourcing facility.
(ii) The record, history, and
nature of recalls linked to the
outsourcing facility.
(iii) The inherent risk of the
d r ug s comp ou nde d at t he
outsourcing facility.
(iv) The inspection frequency
and history of the outsourcing
facility, including whether the
outsourcing facility has been
inspected pursuant to section
704 [21 USCS § 374] within the
last 4 years.
(v) Whether the outsourcing
facility has registered under
this paragraph as an entity that
intends to compound a drug
that appears on the list in effect
under section 506E [21 USCS
§ 356e].
(vi) Any other criteria deemed
necessary and appropriate by
the Secretary for purposes of
allocating inspection resources.

58a
Appendix D
(5) Adverse event reporting.
Outsourcing facilities shall submit adverse event
reports to the Secretary in accordance with the
content and format requirements established
through guidance or regulation under section
310.305 of title 21, Code of Federal Regulations
(or any successor regulations).
(c) Regulations.
(1) In general.
The Secretary shall implement the list described
in subsection (a)(6) through regulations.
(2) Advisory committee on compounding.
Before issuing regulations to implement
subsection (a)(6), the Secretary shall convene
a nd consu lt a n adv isor y com m itt ee on
compounding. The advisory committee shall
include representatives from the National
Association of Boards of Pharmacy, the United
States Pharmacopeia, pharmacists with current
experience and expertise in compounding,
physicians with background and knowledge
in compounding, and patient and public health
advocacy organizations.

59a
Appendix D
(3) Interim list.
(A) In general.
Before the effective date of
the regulations finalized to
implement subsection (a)(6),
the Secretary may designate
drugs, categories of drugs, or
conditions as described [in] such
subsection by—
(i) publishing a notice of such
substances, drugs, categories
of drugs, or conditions proposed
for designation, including the
rationale for such designation,
in the Federal Register;
(ii) providing a period of not
less than 60 calendar days for
comment on the notice; and
(iii) publishing a notice in the
Federal Register designating
such drugs, categories of drugs,
or conditions.
(B) Sunset of notice.
A ny notice prov ided under
subparagraph (A) shall not be
effective after the earlier of—

60a
Appendix D
(i) the date that is 5 years
after the date of enactment of
the Compounding Quality Act
[enacted Nov. 27, 2013]; or
(ii) the effective date of the final
regulations issued to implement
subsection (a)(6).
(4) Updates.
The Secretary shall review, and update as
necessary, the regulations containing the lists
of drugs, categories of drugs, or conditions
described in subsection (a)(6) regularly, but
not less than once every 4 years. Nothing in
the previous sentence prohibits submissions
to the Secretary, before or during any 4-year
period described in such sentence, requesting
updates to such lists.
(d) Definitions.
In this section:
(1) The term “compounding” includes
the combining, admixing, mixing,
diluting, pooling, reconstituting, or
otherwise altering of a drug or bulk
drug substance to create a drug.
(2) The term “essentially a copy of an
approved drug” means—

61a
Appendix D
(A) a drug that is identical or
nearly identical to an approved
drug, or a marketed drug not
subject to section 503(b) [21
USCS § 353(b)] and not subject
to approval in an application
submitted under section 505 [21
USCS § 355], unless, in the case
of an approved drug, the drug
appears on the drug shortage
list in effect under section 506E
[21 USCS § 356e] at the time of
compounding, distribution, and
dispensing; or
(B) a drug, a component of which
is a bulk drug substance that is a
component of an approved drug
or a marketed drug that is not
subject to section 503(b) [21
USCS § 353(b)] and not subject
to approval in an application
submitted under section 505
[21 USCS § 355], unless there
is a change that produces for
an individual patient a clinical
difference, as determined by
the prescribing practitioner,
between the compounded drug
and the comparable approved
drug.

62a
Appendix D
(3) The term “approved drug” means a
drug that is approved under section 505
[21 USCS § 355] and does not appear
on the list described in subsection (a)
(4) of drugs that have been withdrawn
or removed from the market because
such drugs or components of such
drugs have been found to be unsafe
or not effective.
(4)
(A) The term “outsourcing
facility” means a facility at one
geographic location or address
that—
(i) i s e n g a g e d i n t h e
compound i ng of st er i le
drugs;
(ii) has elected to register
as an outsourcing facility;
and
(iii) complies with all of
the requirements of this
section.
(B) An outsourcing facility is
not required to be a licensed
pharmacy.

63a
Appendix D
(C) An outsourcing facility may
or may not obtain prescriptions
for identified individual patients.
(5) The term “sterile drug” means a
drug that is intended for parenteral
administration, an ophthalmic or oral
inhalation drug in aqueous format, or
a drug that is required to be sterile
under Federal or State law.
(d) 2 Obligation to pay fees.
Payment of the fee under section 744K [21 USCS § 379j62], as described in subsection (a)(9), shall not relieve
an outsourcing facility that is licensed as a pharmacy
in any State that requires pharmacy licensing fees of
its obligation to pay such State fees.
§ 371. Regulations and hearings
(a) Authority to promulgate regulations
The authority to promulgate regulations for the
efficient enforcement of this chapter, except as otherwise
provided in this section, is vested in the Secretary.
(b) Regulations for imports and exports
The Secretary of the Treasury and the Secretary
of Health and Human Services shall jointly prescribe
regulations for the efficient enforcement of the provisions

64a
Appendix D
of section 381 of this title, except as otherwise provided
therein. Such regulations shall be promulgated in such
manner and take effect at such time, after due notice,
as the Secretary of Health and Human Services shall
determine.
(c) Conduct of hearings
Hearings authorized or required by this chapter shall
be conducted by the Secretary or such officer or employee
as he may designate for the purpose.
(d) Effectiveness of definitions and standards of identity
The definitions and standards of identity promulgated
in accordance with the provisions of this chapter shall
be effective for the purposes of the enforcement of this
chapter, notwithstanding such definitions and standards
as may be contained in other laws of the United States
and regulations promulgated thereunder.
(e) Procedure for establishment
(1) Any action for the issuance, amendment, or
repeal of any regulation under section 343(j), 344(a), 346,
351(b), or 352(d) or (h) of this title, and any action for
the amendment or repeal of any definition and standard
of identity under section 341 of this title for any dairy
product (including products regulated under parts 131,
133 and 135 of title 21, Code of Federal Regulations)
shall be begun by a proposal made (A) by the Secretary
on his own initiative, or (B) by petition of any interested

65a
Appendix D
person, showing reasonable grounds therefor, filed with
the Secretary. The Secretary shall publish such proposal
and shall afford all interested persons an opportunity to
present their views thereon, orally or in writing. As soon
as practicable thereafter, the Secretary shall by order
act upon such proposal and shall make such order public.
Except as provided in paragraph (2), the order shall
become effective at such time as may be specified therein,
but not prior to the day following the last day on which
objections may be filed under such paragraph.
(2) On or before the thirtieth day after the date on
which an order entered under paragraph (1) is made
public, any person who will be adversely affected by
such order if placed in effect may file objections thereto
with the Secretary, specifying with particularity the
provisions of the order deemed objectionable, stating the
grounds therefor, and requesting a public hearing upon
such objections. Until final action upon such objections
is taken by the Secretary under paragraph (3), the filing
of such objections shall operate to stay the effectiveness
of those provisions of the order to which the objections
are made. As soon as practicable after the time for filing
objections has expired the Secretary shall publish a notice
in the Federal Register specifying those parts of the order
which have been stayed by the filing of objections and, if
no objections have been filed, stating that fact.
(3) As soon as practicable after such request for a
public hearing, the Secretary, after due notice, shall
hold such a public hearing for the purpose of receiving
evidence relevant and material to the issues raised by

66a
Appendix D
such objections. At the hearing, any interested person
may be heard in person or by representative. As soon as
practicable after completion of the hearing, the Secretary
shall by order act upon such objections and make such
order public. Such order shall be based only on substantial
evidence of record at such hearing and shall set forth, as
part of the order, detailed findings of fact on which the
order is based. The Secretary shall specify in the order
the date on which it shall take effect, except that it shall
not be made to take effect prior to the ninetieth day after
its publication unless the Secretary finds that emergency
conditions exist necessitating an earlier effective date, in
which event the Secretary shall specify in the order his
findings as to such conditions.
(f) Review of order
(1) In a case of actual controversy as to the validity
of any order under subsection (e), any person who will be
adversely affected by such order if placed in effect may
at any time prior to the ninetieth day after such order
is issued file a petition with the United States court of
appeals for the circuit wherein such person resides or
has his principal place of business, for a judicial review
of such order. A copy of the petition shall be forthwith
transmitted by the clerk of the court to the Secretary
or other officer designated by him for that purpose. The
Secretary thereupon shall file in the court the record of
the proceedings on which the Secretary based his order,
as provided in section 2112 of title 28.
(2) If the petitioner applies to the court for leave to
adduce additional evidence, and shows to the satisfaction

67a
Appendix D
of the court that such additional evidence is material
and that there were reasonable grounds for the failure
to adduce such evidence in the proceeding before the
Secretary, the court may order such additional evidence
(and evidence in rebuttal thereof) to be taken before the
Secretary, and to be adduced upon the hearing, in such
manner and upon such terms and conditions as to the
court may seem proper. The Secretary may modify his
findings as to the facts, or make new findings, by reason
of the additional evidence so taken, and he shall file such
modified or new findings, and his recommendation, if any,
for the modification or setting aside of his original order,
with the return of such additional evidence.
(3) Upon the filing of the petition referred to in
paragraph (1) of this subsection, the court shall have
jurisdiction to affirm the order, or to set it aside in whole
or in part, temporarily or permanently. If the order of the
Secretary refuses to issue, amend, or repeal a regulation
and such order is not in accordance with law the court shall
by its judgment order the Secretary to take action, with
respect to such regulation, in accordance with law. The
findings of the Secretary as to the facts, if supported by
substantial evidence, shall be conclusive.
(4) The judgment of the court affirming or setting
aside, in whole or in part, any such order of the Secretary
shall be final, subject to review by the Supreme Court
of the United States upon certiorari or certification as
provided in section 1254 of title 28.
(5) Any action instituted under this subsection
shall survive notwithstanding any change in the person

68a
Appendix D
occupying the office of Secretary or any vacancy in such
office.
(6) The remedies provided for in this subsection shall
be in addition to and not in substitution for any other
remedies provided by law.
(g) Copies of records of hearings
A certified copy of the transcript of the record and
proceedings under subsection (e) shall be furnished by
the Secretary to any interested party at his request, and
payment of the costs thereof, and shall be admissible in
any criminal, libel for condemnation, exclusion of imports,
or other proceeding arising under or in respect to this
chapter, irrespective of whether proceedings with respect
to the order have previously been instituted or become
final under subsection (f).
(h) Guidance documents
(1)(A) The Secretary shall develop guidance documents
with public participation and ensure that information
identifying the existence of such documents and the
documents themselves are made available to the public
both in written form and, as feasible, through electronic
means. Such documents shall not create or confer any
rights for or on any person, although they present the
views of the Secretary on matters under the jurisdiction
of the Food and Drug Administration.
(B) Although guidance documents shall not be
binding on the Secretary, the Secretary shall ensure

69a
Appendix D
that employees of the Food and Drug Administration
do not deviate from such guidances without appropriate
justification and supervisory concurrence. The Secretary
shall provide training to employees in how to develop
and use guidance documents and shall monitor the
development and issuance of such documents.
(C)(i) For guidance documents that set forth initial
interpretations of a statute or regulation, changes in
interpretation or policy that are of more than a minor
nature, complex scientific issues, or highly controversial
issues, the Secretary shall ensure public participation
prior to implementation of guidance documents, unless the
Secretary determines that such prior public participation
is not feasible or appropriate. In such cases, the Secretary
shall provide for public comment upon implementation and
take such comment into account.
(ii) With respect to devices, if a notice to industry
guidance letter, a notice to industry advisory letter, or
any similar notice sets forth initial interpretations of a
regulation or policy or sets forth changes in interpretation
or policy, such notice shall be treated as a guidance
document for purposes of this subparagraph.
(D) For guidance documents that set forth existing
practices or minor changes in policy, the Secretary shall
provide for public comment upon implementation.
(2) In developing guidance documents, the Secretary
shall ensure uniform nomenclature for such documents
and uniform internal procedures for approval of such
documents. The Secretary shall ensure that guidance

70a
Appendix D
documents and revisions of such documents are properly
dated and indicate the nonbinding nature of the
documents. The Secretary shall periodically review all
guidance documents and, where appropriate, revise such
documents.
(3) The Secretary, acting through the Commissioner,
shall maintain electronically and update and publish
periodically in the Federal Register a list of guidance
documents. All such documents shall be made available
to the public.
(4) The Secretary shall ensure that an effective
appeals mechanism is in place to address complaints
that the Food and Drug Administration is not developing
and using guidance documents in accordance with this
subsection.
(5) Not later than July 1, 2000, the Secretary after
evaluating the effectiveness of the Good Guidance
Practices document, published in the Federal Register
at 62 Fed. Reg. 8961, shall promulgate a regulation
consistent with this subsection specifying the policies and
procedures of the Food and Drug Administration for the
development, issuance, and use of guidance documents.
§ 379a. Presumption of existence of jurisdiction
In any action to enforce the requirements of this
chapter respecting a device, tobacco product, food, drug,
or cosmetic the connection with interstate commerce
required for jurisdiction in such action shall be presumed
to exist.

71a
Appendix D
379j–62. Authority to assess and use outsourcing
facility fees
(a) Establishment and reinspection fees
(1) In general
For fiscal year 2015 and each subsequent
fiscal year, the Secretary shall, in accordance
with this subsection, assess and collect—
(A) an annual establishment fee
from each outsourcing facility; and
(B) a reinspection fee from each
outsourcing facility subject to a
reinspection in such fiscal year.
(2) Multiple reinspections
An outsourcing facility subject to multiple
reinspections in a fiscal year shall be subject to
a reinspection fee for each reinspection.
(b) Establishment and reinspection fee setting
The Secretary shall—
(1) establish the amount of the establishment
fee and reinspection fee to be collected under
this section for each fiscal year based on the
methodology described in subsection (c); and

72a
Appendix D
(2) publish such fee amounts in a Federal
Register notice not later than 60 calendar days
before the start of each such year.
(c) Amount of establishment fee and reinspection fee
(1) In general
For each outsourcing facility in a fiscal
year—
(A) except as prov ided in
paragraph (4), the amount of the
annual establishment fee under
subsection (b) shall be equal to the
sum of—
(i) $15,000, multiplied by
the inflation adjustment factor
described in paragraph (2); plus
(i i) t he sm a l l bu si ne s s
adjustment factor described in
paragraph (3); and
(B) the amount of any reinspection
fee (if applicable) under subsection (b)
shall be equal to $15,000, multiplied
by the inflation adjustment factor
described in paragraph (2).

73a
Appendix D
(2) Inflation adjustment factor
(A) In general
For fiscal year 2015 and subsequent fiscal
years, the fee amounts established in paragraph
(1) shall be adjusted by the Secretary by notice,
published in the Federal Register, for a fiscal
year by the amount equal to the sum of—
(i) 1;
(ii) the average annual percent
change in the cost, per full-time
equivalent position of the Food and
Drug Administration, of all personnel
compensation and benefits paid with
respect to such positions for the
first 3 years of the preceding 4 fiscal
years, multiplied by the proportion of
personnel compensation and benefits
costs to total costs of an average fulltime equivalent position of the Food
and Drug Administration for the first
3 years of the preceding 4 fiscal years;
plus
(iii) the average annual percent
change that occurred in the Consumer
Price Index for urban consumers
(U.S. City Average; Not Seasonally
Adjusted; All items; Annual Index)

74a
Appendix D
for the first 3 years of the preceding
4 years of available data multiplied by
the proportion of all costs other than
personnel compensation and benefits
costs to total costs of an average fulltime equivalent position of the Food
and Drug Administration for the first
3 years of the preceding 4 fiscal years.
(B) Compounded basis
The adjustment made each fiscal year
under subparagraph (A) shall be added on a
compounded basis to the sum of all adjustments
made each fiscal year after fiscal year 2014
under subparagraph (A).
(3) Small business adjustment factor
The small business adjustment factor described in
this paragraph shall be an amount established by the
Secretary for each fiscal year based on the Secretary’s
estimate of—
(A) the number of small businesses that
will pay a reduced establishment fee for such
fiscal year; and
(B) the adjustment to the establishment
fee necessary to achieve total fees equaling
the total fees that the Secretary would have
collected if no entity qualified for the small
business exception in paragraph (4).

75a
Appendix D
(4) Exception for small businesses
(A) In general
In the case of an outsourcing facility
with gross annual sales of $1,000,000 or less
in the 12 months ending April 1 of the fiscal
year immediately preceding the fiscal year in
which the fees under this section are assessed,
the amount of the establishment fee under
subsection (b) for a fiscal year shall be equal to
\1/3\ of the amount calculated under paragraph
(1)(A)(i) for such fiscal year.
(B) Application
To qualify for the exception under this
paragraph, a small business shall submit
to the Secretary a written request for such
exception, in a format specified by the Secretary
in guidance, certifying its gross annual sales
for the 12 months ending April 1 of the fiscal
year immediately preceding the fiscal year in
which fees under this subsection are assessed.
Any such application shall be submitted to
the Secretary not later than April 30 of such
immediately preceding fiscal year.
(5) Crediting of fees
In e st abl i sh i ng t he sma l l bu si ne s s
adjustment factor under paragraph (3) for a
fiscal year, the Secretary shall—

76a
Appendix D
(A) provide for the crediting of
fees from the previous year to the next
year if the Secretary overestimated
the amount of the small business
adjustment factor for such previous
fiscal year; and
(B) consider the need to account for
any adjustment of fees and such other
factors as the Secretary determines
appropriate.
(d) Use of fees
The Secretary shall make all of the fees collected
pursuant to subparagraphs (A) and (B) of subsection (a)
(1) available solely to pay for the costs of oversight of
outsourcing facilities.
(e) Supplement not supplant
Funds received by the Secretary pursuant to this
section shall be used to supplement and not supplant any
other Federal funds available to carry out the activities
described in this section.
(f) Crediting and availability of fees
Fees authorized under this section shall be collected
and available for obligation only to the extent and in the
amount provided in advance in appropriations Acts. Such
fees are authorized to remain available until expended.

77a
Appendix D
Such sums as may be necessary may be transferred from
the Food and Drug Administration salaries and expenses
appropriation account without fiscal year limitation to
such appropriation account for salaries and expenses with
such fiscal year limitation. The sums transferred shall
be available solely for the purpose of paying the costs of
oversight of outsourcing facilities.
(g) Collection of fees
(1) Establishment fee
An outsourcing facility shall remit the
establishment fee due under this section in
a fiscal year when submitting a registration
pursuant to section 353b(b) of this title for such
fiscal year.
(2) Reinspection fee
The Secretary shall specify in the Federal
Register notice described in subsection (b)(2)
the manner in which reinspection fees assessed
under this section shall be collected and the
timeline for payment of such fees. Such a fee
shall be collected after the Secretary has
conducted a reinspection of the outsourcing
facility involved.

78a
Appendix D
(3) Effect of failure to pay fees
(A) Registration
A n outsourcing facility shall not be
considered registered under section 353b(b) of
this title in a fiscal year until the date that the
outsourcing facility remits the establishment
fee under this subsection for such fiscal year.
(B) Misbranding
A l l d r ugs ma nu factu red, prepa red,
propagated, compounded, or processed by an
outsourcing facility for which any establishment
fee or reinspection fee has not been paid, as
required by this section, shall be deemed
misbranded under section 352 of this title until
the fees owed for such outsourcing facility
under this section have been paid.
(4) Collection of unpaid fees
In any case where the Secretary does not
receive payment of a fee assessed under this
section within 30 calendar days after it is due,
such fee shall be treated as a claim of the United
States Government subject to provisions of
subchapter II of chapter 37 of title 31.

79a
Appendix D
(h) Annual report to Congress
Not later than 120 calendar days after each fiscal year
in which fees are assessed and collected under this section,
the Secretary shall submit a report to the Committee on
Health, Education, Labor, and Pensions of the Senate and
the Committee on Energy and Commerce of the House of
Representatives, to include a description of fees assessed
and collected for such year, a summary description of
entities paying the fees, a description of the hiring and
placement of new staff, a description of the use of fee
resources to support inspecting outsourcing facilities,
and the number of inspections and reinspections of such
facilities performed each year.
(i) Authorization of appropriations
For fiscal year 2014 and each subsequent fiscal year,
there is authorized to be appropriated for fees under this
section an amount equivalent to the total amount of fees
assessed for such fiscal year under this section.
Cal Bus & Prof Code § 4129
§ 4129. Licensure as outsourcing facility; Adoption of
regulations; Review of FDA requirements and guidance
documents; Prohibition against providing pharmacy
services
(a) A facility licensed as an outsourcing facility
with the federal Food and Drug Administration
(FDA) shall be concurrently licensed with the

80a
Appendix D
board as an outsourcing facility if it compounds
sterile medication or nonsterile medication for
nonpatient-specific distribution within or into
California.
(b) A facility premises licensed with the board
as a sterile compounding pharmacy shall not
be concurrently licensed with the board as an
outsourcing facility at the same location.
(c) The board may adopt reg ulations in
accordance with the Administrative Procedure
Act (Chapter 3.5 (commencing with Section
11340) of Part 1 of Division 3 of Title 2 of
the Government Code) to establish policies,
guidelines, and procedures to implement this
article.
(d) T he boa rd sha ll rev iew any for ma l
requirements or guidance documents developed
by the FDA regarding outsourcing facilities
within 90 days after their release in order to
determine whether revisions are necessary for
any regulations promulgated by the board.
(e) An outsourcing facility licensed by the board
shall not perform the duties of a pharmacy, such
as filling individual prescriptions for individual
patients.

81a
Appendix D
CA Bus & Prof Code § 4129.1 (2017)
(a) An outsourcing facility that is licensed with
the federal Food and Drug Administration
(FDA) and with an address in this state shall
also be licensed by the board as an outsourcing
facility before doing business within this state.
The license shall be renewed annually and is
not transferable.
(b) An outsourcing facility shall compound all
sterile products and nonsterile products in
compliance with regulations issued by the board
and with federal current good manufacturing
practices applicable to outsourcing facilities.
(c) An outsourcing facility license shall not be
issued or renewed until the location is inspected
by the board and found in compliance with this
article and regulations adopted by the board.
(d) An outsourcing facility license shall not be
issued or renewed until the board does all of
the following:
(1) Prior to inspection, reviews a
current copy of the outsourcing
facility’s policies and procedures for
sterile compounding and nonsterile
compounding.
(2) Is provided with copies of all
federal and state regulatory agency

82a
Appendix D
i n sp e c t ion r ep or t s , a s wel l a s
accreditation reports, and certification
reports of facilities or equipment of
the outsourcing facility’s premises
conducted in the prior 12 months.
(3) Prior to inspection, receives a list
of all sterile drugs and nonsterile
drugs compounded by the outsourcing
facility as reported to the FDA in the
last 12 months.
(e) An outsourcing facility licensed pursuant
to this section shall provide the board with all
of the following:
(1) A copy of any disciplinary or other
action taken by another state or the
FDA within 10 days of the action.
(2) Notice within 24 hours of any
recall notice issued by the outsourcing
facility.
(3) A copy of any clinically related
complaint it receives involving an
outsourcing facility’s compounded
products f rom or involv ing any
provider, pharmacy, or patient in
California within 72 hours of receipt.

83a
Appendix D
(4) Notice w ithin 24 hours after
learning of adverse effects reported
or potentially attributable to the
outsourcing facility’s products.
CA Bus & Prof Code § 4129.4 (2017)
(a) Whenever the board has a reasonable
belief, based on information obtained during an
inspection or investigation by the board, that an
outsourcing facility compounding sterile drug
products or nonsterile drug products poses an
immediate threat to the public health or safety,
the executive officer of the board may issue an
order to the outsourcing facility to immediately
cease and desist compounding sterile drug
products or nonsterile drug products. The
cease and desist order shall remain in effect for
no more than 30 days or the date of a hearing
seeking an interim suspension order, whichever
is earlier.
(b) Whenever the board issues a cease and
desist order pursuant to subdivision (a), the
board shall immediately issue a notice to the
owner setting forth the acts or omissions with
which the owner is charged, specifying the
pertinent code section or sections and any
regulations.
(c) The cease and desist order shall state that
the owner, within 15 days of receipt of the notice,

84a
Appendix D
may request a hearing before the president
of the board to contest the cease and desist
order. Consideration of the owner’s contest of
the cease and desist order shall comply with
the requirements of Section 11425.10 of the
Government Code. The hearing shall be held no
later than five days after the date the request
of the owner is received by the board. The
president shall render a written decision within
five days after the hearing. In the absence of the
president of the board, the vice president of the
board may conduct the hearing permitted by
this subdivision. Review of the decision may be
sought by the owner or person in possession or
control of the outsourcing facility pursuant to
Section 1094.5 of the Code of Civil Procedure.
(d) Failure to comply with a cease and desist
order issued pursuant to this section shall be
unprofessional conduct.

